Report No. D-2010-6-003                  September 24, 2010




      Actions to Establish Final Indirect Cost Rates on
    Reportable Contract Audit Reports by the Supervisor
      of Shipbuilding, Conversion and Repair, Groton,
                         Connecticut
Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector General of the
Department of Defense at www.dodig.mil/audit/reports or contact the Office of the
Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760
(DSN 664-8760) or fax (703) 604-8982.

Suggestions for Future Reviews

To suggest ideas for or to request future reviews, contact the Office of the Assistant
Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
fax (703) 604-8982. Ideas and requests can also be mailed to:


                         Office of the Assistant Inspector General
                              for Audit Policy and Oversight
                         Department of Defense Inspector General
                           400 Army Navy Drive (Room 833)
                                Arlington, VA 22202-4704
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704



                                                                     SEP 24 2010
MEMORANDUM FOR DIRECTOR, CONTRACTS, NAVAL SEA SYSTEMS
                COMMAND
               DIRECTOR, CONTRACTS DIVISION, SHIPBUILDING
                DIVISION NAVAL SEA SYSTEMS COMMAND
               SUPERVISOR OF SHIPBUILDING, CONVERSION AND
                REP AIR, GROTON, CONNECTICUT

SUBJECT: Actions to Establish Final Indirect Cost Rates on Reportable Contract Audit
         Reports by the Supervisor of Shipbuilding, Conversion and Repair, Groton,
         Connecticut (Report No. D-2010-6-003)

       We are providing this report for your review and comment. We performed this
review in accordance with DoD Instruction 7640.02, which requires that we monitor and
evaluate systems in the Department of Defense for follow-up on contract audits.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Department of Navy comments were partially responsive. Please reconsider your
responses to Recommendation A.I.e, A.2.b(iii), B.4, and C.l, including your response to
each associated Finding, and provide additional comments to Recommendations A.l.b,
A.I.c, A.1.d, and A.2.b. Please establish a suspense date of October 30,2010.

       Please ensure your comments conform to the requirements of DoD Directive
7650.3. Send your management comments in electronic format (Adobe Acrobat file
only) to the email address cited in the last paragraph of this memorandum. Copies of the
management comments must contain the actual signature of the authorizing official. We
cannot accept the /Signed/ symbol in place of the actual signature.

       We appreciate the courtesies extended to our staff. Questions should be directed
to Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), Carolyn.Davis@dodig.mil.


                                           /'~         If.   l~)o
                                         n;ndofr'h R. Stone
                                         Deputy Inspector General
                                          for Policy and Oversight
Table of Contents
Results in Brief                                                                  i

Introduction
   Objective                                                                      1
   Background                                                                     1

Findings
   A. Noncompliant Method for Administering Indirect Cost Rates on Cost
           Reimbursable Type Contracts                                            3
           Noncompliance with Federal Acquisition Regulation 52.216-7
              Allowable Cost and Payment                                          4
           Noncompliance with 41 USC 422 - Cost Accounting Standards Board        4
           Measure of Materiality of Cost Impact, Violation of Cost Accounting
             Standard 406                                                         4
           Failure to Make a Determination after Receipt of Report of Alleged
               Noncompliance from Auditor                                         5
           Groton Proposed Corrective Action                                      5
           Office of Inspector General Comments, Groton Proposed
              Corrective Action                                                   6
           Management Comments on the Finding and Our Response                    7
           Recommendations, Management Comments, and Our Response                11


   B. Settlement Agreements Wrongly Offset Contract Debts, Lack Sufficient
             Supporting Documentation                                            16
           2004 Memoranda of Agreement                                           16
           Noncompliant Offset of Contract Debt for Unpaid Bills                 17
           Retrieval of Monies Remaining with the Contractor                     18
           Violation of Contracting Officer Responsibilities, Contract Debt      18
           Potential Violation of 31 U.S.C. 1341 Limitations on Expending and
            Obligating Amounts                                                   19
           Failure to Execute Business Clearance Memoranda                       20
           Failure to Maintain Contract Files                                    20
           Management Comments on the Finding and Our Response                   21
           Recommendations, Management Comments, and Our Response                25
Table of Contents (cont’d)

  C. Groton Unable to Establish Contractor Entitlement to Pension Cost Offset   30
         Naval Sea Systems Command Negotiation Objective for
            Contractor Pension Costs                                            30
         Review of Terms, Contract No. N00024-96-C-2108                         31
         Review of Terms, Groton June 7, 1996, Memorandum of Agreement          31
         Lack of Rescission/Modification for Change to Contract Structure       32
         Lack of Contractor Claim or Invoice                                    32
         Groton Demonstration of Amount                                         32
         Failure to Safeguard the Interests of the United States in its
             Contractual Relationships                                          33
         Management Comments on the Finding and Our Response                    33
         Recommendations, Management Comments, and Our Response                 38

Appendix                                                                        41

Management Comments
  Summary of Assistant Secretary of the Navy, (Research Development
     and Acquisition) Comments                                                  43
  Assistant Secretary of the Navy, (Research Development
     and Acquisition)                                                           44
  Director, Budget Policy and Procedures Division, Office of Budget,
     Assistant Secretary of the Navy, (Financial Management
     and Comptroller)                                                           66
  Director, Program Analysis and Business Transformation,
     Deputy Assistant Secretary of the Navy, (Acquisition
     and Logistics Management)                                                  70
             Actions to Establish Final Indirect Cost
          Rates on Reportable Contract Audit Reports
               by the Supervisor of Shipbuilding,
       Conversion and Repair, Groton, Connecticut
Results In Brief
                                                     a potential Antideficiency Act violation. We
What We Did                                          concluded the other unpaid bill, said to equal
For semiannual reporting periods ending              $1,919,000 for contractor pension costs, was
between        September 30, 2004,        and        in effect consideration given to the
March 31, 2007, we evaluated the actions             contractor for agreeing to circumvent the
taken by contracting officials at the                legally binding requirements of an existing
Supervisor of Shipbuilding, Conversion and           Advance Agreement on Pension Cost when
Repair, Groton, Connecticut, to establish            entering into the SSN-23 SEAWOLF
final indirect cost rates on cost                    Contract. We find no provision in the
reimbursable-type contracts. We reviewed             Federal Acquisition Regulation that would
certain Memoranda of Agreement for                   allow for the use of such an arrangement as
compliance with procurement regulations              the basis for offsetting a legitimate
and performed an in-depth review of                  contractor debt.
contracting officer actions taken to liquidate
contract debts totaling $3.8 million.                What We Recommend
                                                     We recommend the Department of Navy
What We Found                                        take vigorous action to recover $1,919,000
Final indirect cost rates established by             in contractor debt wrongly offset against an
contracting officials since the 1970s at the         'unpaid bill' for pension costs. We also
Supervisor of Shipbuilding, Conversion and           recommend the Navy re-evaluate all aspects
Repair, Groton, Connecticut, did not comply          of the $3,882,926 debt liquidation for
with the Federal Acquisition Regulation and          compliance with the Federal Acquisition
the Cost Accounting Standards. Groton                Regulation in effect at the time. We
contracting officials had not taken action to        recommend that contracting officials at the
resolve an allegation of noncompliance with          Supervisor of Shipbuilding, Conversion and
the Cost Accounting Standards reported by            Repair, Groton, Connecticut, negotiate final
the Defense Contract Audit Agency. Groton            indirect cost rates in accordance with the
contracting officials had not justified their        Federal Acquisition Regulation and the Cost
actions when executing Memoranda of                  Accounting Standards and take action to
Agreement with the contractor with                   demonstrate that past practices did not result
approved business clearance memoranda.               in increased costs to the United States. We
Groton contracting officials had improperly          recommend they drop the use of the
liquidated     contractor    debt    totaling        ‘Reservation of Rights’ practice which
$3,882,926 against two unpaid bills totaling         delays cost negotiation to future years, and
$3,615,860. One unpaid bill was for a                re-evaluate the sufficiency of all existing
funding shortfall of $1,696,860 on a                 Memoranda of Agreement and contract case
submarine overhaul contract and represented          files.

                                                 i
             Actions to Establish Final Indirect Cost
          Rates on Reportable Contract Audit Reports
               by the Supervisor of Shipbuilding,
       Conversion and Repair, Groton, Connecticut
Results In Brief (cont’d)
                                                     A.1.e, A.2.b(iii), B.4, and C.1, including
Management Comments                                  your response to each associated Finding,
and Our Responses                                    and provide additional comments to
                                                     Recommendations A.1.b, A.1.c, A.1.d, and
The Navy concurred with 17 of 28
                                                     A.2.b. Please establish a suspense date of
recommendations, concurred in principle
                                                     October 30, 2010.
with six, partially concurred with two, and
nonconcurred with three recommendations.               United Stated Department of Department of Defense Office of Inspector General

The Navy concurred in principle with our                                  (Project No. D2009-DIP0AI-0022.005)
                                                                                (Report No. D-2010-6-003)

finding on final indirect cost rates and                                            September 24, 2010


revised its practices. The Navy agreed to
determine whether their noncompliance with
Cost Accounting Standard 406 resulted in
increased costs on US Government
contracts, and to act upon a prior auditor
allegation of contractor noncompliance with
the Cost Accounting Standards. The Navy
concurred in principle with our findings on
business clearance memoranda and poor
contract case file maintenance. The Navy
did not concur with our finding and
recommendation to discontinue use of the
Reservation of Rights practice. The Navy
budgeting office found that Groton officials
had improperly authorized contract debt
liquidation in the amount of $3,882,926, had
violated the Purpose Statute, but did not
violate the Antideficiency Act. A Navy
official determined that the same debt
liquidation was undertaken in good faith.
Regarding the $1,919,000 debt liquidation
granted the contractor for pension cost, the
Navy concurs in principle, but believes the
treatment of pension costs in the negotiation
of the SEAWOLF contract resulted in the
lowest cost solution for the Government. We
request that the Department of Navy
reconsider its responses to Recommendation

                                                ii
                                    Introduction
Objective
The objective of the project was to evaluate the actions taken by contracting officials at the
Supervisor of Shipbuilding, Conversion and Repair, Groton, to establish final indirect cost rates
in accordance with Federal Acquisition Regulation 52.216-7, Allowable Cost and Payment. In
addition, we evaluated certain 2004 Memoranda of Agreement entered into by senior Groton
contracting officials to ensure that all actions complied with (i) the requirements of law,
executive orders, regulations, and other applicable procedures and, (ii) ensured compliance with
the terms of the contract and safeguarded the interests of the United States in its contractual
relationships. See Appendix A for additional details regarding our scope.

Background
Naval Sea Systems Command. Naval Sea Systems Command is the largest of the Navy's
five system commands and the Navy’s central activity for designing, engineering, integrating,
building, and procuring ships and shipboard weapons and combat systems. The Naval Sea
Systems Command awards nearly $24 billion in contracts annually for new construction of ships
and submarines, ship repair, major weapon systems and services. The mission of Naval Sea
Systems Command is to develop, deliver and maintain ships and systems for the United States
Navy. The Contracts Directorate, headed by the Director of Contracts, Naval Sea Systems
Command, is headquartered in Washington, District of Columbia. One component of the
Contracts Directorate is the Shipbuilding Division. The Business Operations Officer, Supervisor
of Shipbuilding, Conversion and Repair, Groton, has a dual reporting relationship to the Director
of Contracts through the Shipbuilding Division Director.

Supervisor of Shipbuilding, Conversion and Repair, Groton. The Supervisor of
Shipbuilding, Conversion and Repair, Groton, is the liaison between the Department of the Navy
and the contractor who is engaged in the design and construction of new nuclear powered
submarines as well as the repair and modernization of submarines in the Fleet. The Supervisor's
responsibilities include administering all contracts, outfitting the ships, assuring that the
technical and quality assurance requirements of the contracts are fully met and that the final
product delivered to the Fleet is ready to sail "in harms way.” The Business Operations Officer,
Supervisor of Shipbuilding, Conversion and Repair, Groton, has a direct reporting relationship to
the Supervisor of Shipbuilding, Conversion and Repair, Groton and a functional reporting
relationship to the Director, Shipbuilding Contracts, Naval Sea Systems Command.

Defense Contract Audit Agency. The mission of the Defense Contract Audit Agency, while
serving the public interest as its primary customer, is to perform all necessary contract audits for
the Department of Defense and provide accounting and financial advisory services regarding
contracts and subcontracts to all Department Components responsible for procurement and
contract administration. The Agency issues reports resulting from several types of audits, such


                                                 1
as audits of costs incurred by Government contractors on cost reimbursable contracts. The
Defense Contract Audit Agency performs this type of audit to determine whether the costs
incurred by a contractor and charged on Government contracts are allowable, allocable, and
reasonable based on applicable criteria in the Federal Acquisition Regulation, Defense Federal
Acquisition Regulation Supplement, and Cost Accounting Standards. The Defense Contract
Audit Agency issued eight incurred cost audit reports to Supervisor of Shipbuilding, Conversion
and Repair, Groton, covering contractor fiscal years 1997 through 2004.

Department of Defense Directive 7640.2, “Policy for Follow-up on Contract Audit
Reports,” dated February 12, 1988. The Directive prescribed the responsibilities, reporting
requirements, and follow-up procedures on contract audits conducted by the Defense Contract
Audit Agency. Paragraph 6.5 of the Directive required the contracting officer to prepare a post-
negotiation memorandum covering the disposition of all significant audit report findings,
including the underlying rationale for such dispositions. The Department of Defense Inspector
General evaluates the effectiveness of contract audit follow-up systems implemented at each
Department of Defense Component for compliance with this directive.

Department of Defense Directive 7640.2 also required Department of Defense Components to
submit semiannual status reports on reportable contract audits to the Department of Defense
Inspector General. The Department of Defense Inspector General includes a summary of the
status reports for all Department of Defense Components in its Semiannual Report to Congress.
Department of Defense Directive 7640.2 applied to all contract audit follow-up actions covered
in this review. On August 22, 2008, the Department of Defense Inspector General reissued the
Directive as Department of Defense Instruction 7640.02.




                                                2
                                               Findings
    A. Noncompliant Method for Administering
       Indirect Cost Rates on Cost Reimbursable
       Type Contracts
    The Business Operations Department, Supervisor of Shipbuilding, Conversion and Repair,
    Groton, does not comply with the Federal Acquisition Regulation and the Cost Accounting
    Standards when establishing final indirect rates 1 for use in settling Government cost
    reimbursement type contracts. The Groton Business Operations Department uses a Post
    Audit Disallowance Factor 2 in lieu of final indirect cost rates to remove unallowable costs
    from cost-reimbursable contracts subject to Federal Acquisition Regulation 31.2 - Contracts
    with Commercial Organizations. In 2004 the Groton Business Operations Department set
    aside $94 million in contractor costs recorded in fiscal years 1997 through 2001 for later
    negotiation and settlement, using a 'Reservations of Rights' practice. As reported in
    Department of Defense Inspector General Report No. D-2008-06-005, dated May 6, 2008,
    we found that Groton personnel had used the Post Audit Disallowance Factor to shift $15.4
    million in unallowable corporate office costs recorded in contractor fiscal years 1997 through
    1999 to fiscal year 2006 for settlement.

    The Post Audit Disallowance Factor includes unallowable costs recorded by the contractor in
    prior cost accounting periods. This occurs when costs previously 'reserved' are determined in
    a later contractor cost accounting period to be unallowable but the original accounting period
    has been closed for cost accounting purposes. In this situation, personnel at the Groton
    Business Operations Department adjust the Post Audit Disallowance Factor for the next open
    contractor fiscal year. This practice shifts unallowable costs incurred in a prior cost
    accounting period to a future cost accounting period in violation of Cost Accounting
    Standard 406 - Cost Accounting Period. 3 The use of the Post Audit Disallowance Factor is a


1
  On cost-reimbursable type government contracts, the government and contractor establish final indirect cost rates
for each contractor fiscal year. The final indirect cost rates must exclude any contractor indirect costs that are found
by the contracting officer to be unallowable or unallocable in accordance with Federal Acquisition Regulation Part
31.2 – Contracts with Commercial Organizations and the Cost Accounting Standards established by the Cost
Accounting Standard Board. The final indirect cost rates established by the government are used to determine the
final allowable cost on government cost reimbursable type contracts.
2
  The factor represents all negotiated contractor unallowable costs regardless of how the costs had been originally
classified by the contractor; i.e., as general and administrative expense, employee fringe benefits, or overhead. The
Post Audit Disallowance Factor is applied to existing contracts using a direct labor cost base.
3
  Cost Accounting Standard 406 - Cost Accounting Period, establishes criteria for the selection of the time period to
be used as a cost accounting period for contract cost estimating, accumulating, and reporting. A fundamental
requirement of Cost Accounting Standard 406 is that the same cost accounting period shall be used for accumulating
costs in an indirect cost pool as for establishing its allocation base.


                                                           3
    practice that is not compliant with the Federal Acquisition Regulation and the Cost
    Accounting Standards, but has been in use at Groton since the 1970s.

    Noncompliance with Federal Acquisition Regulation 52.216-7 Allowable Cost and
    Payment. The use by the Groton Business Operations Department of a Post Audit
    Disallowance Factor in lieu of final indirect cost rates to segregate unallowable costs does
    not comply with Federal Acquisition Regulation 52.216-7 – Allowable Cost and Payment.
    The contract clause requires that each final indirect cost rate exclude unallowable costs, as
    shown in the records maintained by the contractor. However, under the Groton practice,
    contractor indirect cost rates included identified unallowable costs. In lieu of complying with
    Federal Acquisition Regulation 52.216-7 and excluding unallowable costs from each indirect
    cost rate, Groton used the Post Audit Disallowance Factor. As a result of this Contract Audit
    Follow-Up project, and as discussed further in the section below for Groton Proposed
    Corrective Action, the Groton Business Operations Officer has proposed discontinuing the
    use of the Post Audit Disallowance Factor.

    Noncompliance with 41 U.S.C. 422 - Cost Accounting Standards Board. Public
    statute 41 U.S.C. 422(f)(2)(A) 4 states,

                 Cost accounting standards promulgated under this section shall be
                 mandatory for use by all executive agencies and by contractors
                 and subcontractors in estimating, accumulating, and reporting
                 costs in connection with pricing and administration of, and
                 settlement of disputes concerning, all negotiated prime contract
                 and subcontract procurements with the United States in excess of
                 the amount set forth in section 2306a(a)(1)(A)(i) of title 10, as such
                 amount is adjusted in accordance with applicable requirements of
                 law.

    Use of the Post Audit Disallowance Factor by the Groton Business Operations Department
    violates the provisions of Cost Accounting Standard 406 - Cost Accounting Period. For
    example, Groton contracting officials included $15.4 million in unallowable corporate office
    costs recorded by the contractor in fiscal years 1997 through 1999 in the Post Audit
    Disallowance Factor used to adjust contract costs in the contractor’s cost accounting period
    for 2006. Cost Accounting Standard 406 was effective as of April 17, 1992. The Groton
    practice for use of the Post Audit Disallowance Factor dates from the 1970s.

    Measure of Materiality of Cost Impact, Violation of Cost Accounting Standard 406.
    Personnel in the Groton Business Operations Department could not demonstrate that the on-
    going violation of Cost Accounting Standard 406 caused by use of the Post Audit
    Disallowance Factor has had a material or immaterial cost impact on Government contract
4
 41 U.S.C. 422 has been incorporated into the Federal Acquisition Regulation at 48 Code of Federal Regulations
Chapter 99 (Federal Acquisition Regulation Appendix). Federal Acquisition Regulation Part 30 Cost Accounting
Standards Administration describes policies and procedures for applying the Cost Accounting Standards Board rules
and regulations.


                                                       4
    prices and costs. 5 Although they asserted an immaterial cost impact on individual indirect
    cost rates for a particular cost accounting period, they did not demonstrate their assertion
    using the criteria provided at Federal Acquisition Regulation 30.605 and 48 Code of Federal
    Regulations 9903.305 – Materiality.

    Failure to Make a Determination after Receipt of Report of Alleged Noncompliance
    from Auditor. The administrative contracting officer in the Groton Business Operations
    Department failed to comply with Federal Acquisition Regulation 30.605 - Processing
    Noncompliances 6 and take action upon the receipt from the auditor of a report of alleged
    Cost Accounting Standard noncompliance. On September 14, 2004, the Defense Contract
    Audit Agency issued Report No. 02361-2003B17900017, Report on Application of Agreed-
    Upon Procedures, Prior Year Overhead Adjustments. The Defense Contract Audit Agency
    reported that:

             •   The contractor's practice of recording prior period indirect cost adjustments as a
                 current year cost separation shop order is noncompliant with Cost Accounting
                 Standards 401 and 402 and produces an inaccurate final rate presentation.
             •   The contractor should be required to bill costs for all contracts in the same
                 accounting/billing period that the costs were recognized.
             •   The contractor should be required to record the prior period costs in the specific
                 account, in the appropriate cost pool, and allocate the expense to final cost
                 objectives through the applicable overhead, fringe benefit, or General and
                 Administrative rate applicable to the cost accounting period in which the expense
                 was recorded.

    Groton Proposed Corrective Action. By memorandum to the Office of the Assistant
    Inspector General for Audit Policy and Oversight dated July 16, 2009, the Groton Business
    Operations Officer reported that he had initiated actions to improve (i) the process by which
    the Groton Business Operations Department and the contractor negotiate settlement of
    claimed contractor incurred costs, and (ii) the contractor’s practice for accounting for
    unallowable costs. Included in the action plan were the following:

             •   Discontinue the use of the Post Audit Disallowance Factor in its entirety.
             •   Require the contractor to begin submitting certified final indirect rate proposals
                 using allowable indirect cost rates in compliance with Federal Acquisition
                 Regulation 52.216-7.

5
  Criteria for determining whether amounts of costs are material or immaterial are provided at 48 Code of Federal
Regulations 9903.305 – Materiality, and include the absolute dollar amount involved, the impact on Government
funding, and the cumulative impact of individually immaterial items.
6
  Federal Acquisition Regulation 30.605 – Processing Noncompliances, provides procedures a contracting officer
must follow prior to making a contract price or cost adjustment under the applicable contract clauses. The first
procedure is to either notify the auditor within 15 days of receiving a report of alleged noncompliance that the
contracting officer disagrees with the alleged noncompliance, or issue a notice of potential noncompliance to the
contractor.


                                                         5
             •    Limit the use of “Reservation of Rights” practice. The contracting officer will no
                  longer move negotiated and settled costs forward into the next open accounting
                  period after an incurred cost year has been settled and closed. Instead, the Groton
                  Business Operations Department shall require the contractor to issue payment in
                  the form of a check payable to the United States Treasury.

    Office of Inspector General Comments, Groton Proposed Corrective Action. The
    Department of Defense Inspector General, Office of the Assistant Inspector General for
    Audit Policy and Oversight, believes the proposed corrective action plan, if implemented,
    will not go far enough to bring the business practices used by the Groton Business
    Operations Department into compliance with the Federal Acquisition Regulation and Cost
    Accounting Standards. The corrective action plan does not (i) address Cost Accounting
    Standards administration, and (ii) provides for the continued use of the ‘Reservation of
    Rights’ practice.

         (i)     Cost Accounting Standards Administration. The plan does not address actions
         necessary to achieve compliance with 41 USC 422 and Federal Acquisition Regulation
         Part 30, Cost Accounting Standards Administration. The allegations of noncompliance
         with Cost Accounting Standards 401 and 402 included in Defense Contract Audit Agency
         Report No. 02361-2003B17900017 need to be addressed by the Groton Business
         Operations Department as required by Federal Acquisition Regulation 30.605 –
         Processing Noncompliances. Additionally, the violation of Cost Accounting Standard
         406 caused by the past use of the Post Audit Disallowance Factor as identified in this
         report needs to be examined to ensure the Government has not paid increased prices and
         costs on contracts subject to the Cost Accounting Standards.

         (ii)    Reservation of Rights. The use of the ‘Reservation of Rights’ procedure must be
         ended. “Reservation of Rights’ simply delays the negotiation of cost issues and pushes
         costs into future cost accounting periods in violation of Cost Accounting Standard 406.
         These delays jeopardize the Government’s position by risking the loss of government
         records and personnel familiar with the cost issue (see Findings B and C). All cost
         allowability and allocability issues except those specifically addressed by the Cost
         Principle at Federal Acquisition Regulation 31.205-47 – Costs Related to Legal and
         Other Proceedings 7, must be addressed, negotiated and settled as a part of the settlement
         of the contractor’s fiscal year final indirect cost rates. The Federal Acquisition
         Regulation does not provide for the deferral of any other type of cost issue. The duty
         given the administrative contracting officer in Federal Acquisition Regulation Part 42.7 –



7
  The cost principle provides that a contracting officer shall generally withhold payment of contractor costs incurred
in connection with any proceeding brought by a Federal, State, local or foreign government for violation of law or
regulation, including actions brought by a third party under the False Claims Act. However, the Cost Principle
provides that, if in the best interests of the Government, the contracting officer may provide for conditional payment
upon provision of adequate security, or other adequate assurance, and agreement by the contractor to repay all
unallowable costs, plus interest, if the costs are subsequently determined to be unallowable.


                                                          6
         Indirect Cost Rates, is to settle all indirect cost issues when establishing final indirect cost
         rates for a contractor’s fiscal year. 8


Management Comments on the Finding and Our Response.
         The Assistant Secretary of the Navy (Research Development and Acquisition), provided
         the Department of Navy response dated May 21, 2010. A summary of the comments is
         provided below. The full text of the response is provided in the Management Comments
         section of the report.

         Management Comments: Noncompliant Method for Administering Indirect Cost
         Rates on Cost Reimbursable Type Contracts. The Department of Navy concurred
         with the finding.

         Our Response. The Navy comments were responsive.

         Management Comments: Noncompliance with Federal Acquisition Regulation
         52.216-7 Allowable Cost and Payment. The Department of Navy concurred in
         principle, stating that Groton did comply with Federal Acquisition Regulation 52.216-7
         Allowable Cost and Payment. In his response, The Assistant Secretary of the Navy
         (Research Development and Acquisition) stated that the disagreement between the
         Inspector General and the Groton Business Operations Department was a disagreement
         on the technique used to comply with the applicable Federal Acquisition Regulation, and
         that both techniques achieve the same result of excluding unallowable costs from indirect
         cost rates. He commented that in light of the Inspector General concern, the contractor
         has revised their billing practice to exclude unallowable costs by cost element, effective
         January 1, 2009.

         Our Response. We disagree. The practice used by Groton to settle indirect rates using
         a Post Audit Disallowance Factor did not comply with Federal Acquisition Regulation
         52.216-7 and Cost Accounting Standard 406.

         Management Comments: Noncompliance with 41 U.S.C. 422 – Cost Accounting
         Standards Board. The Department of Navy concurred with the finding.

         Our Response. The Navy comments were responsive.

         Management Comments: Measure of Materiality of Cost Impact, Violation of Cost
         Accounting Standard 406. The Department of Navy did not concur. In his response,
         The Assistant Secretary of the Navy (Research Development and Acquisition) stated that

8
  Federal Acquisition Regulation 42.705-1(b)(5) states that the cognizant contracting officer shall conduct
negotiations and prepare, sign, and place in the contractor general file a negotiation memorandum covering a
reconciliation of all costs questioned, with identification of items and amounts allowed or disallowed in the final
settlement as well as the disposition of period costing or allocability issues.


                                                           7
Groton firmly believes that the Government was not harmed by the practice of using the
post audit disallowance factor. He stated that during the OIG review, Groton provided a
cost impact demonstrating the immateriality. The Assistant Secretary of the Navy
(Research Development and Acquisition) also provided that the contractor’s change in
accounting and billing practices, effective January 1, 2009, has modified this practice to
be consistent with the Inspector General recommendation.

Our Response. We disagree. Subsequent to receipt of the Department of Navy
response, we held meetings with Naval Sea Systems Command contracting officials
(Director for Contracts, Deputy Director of Contract Policy, and Director, Shipbuilding
Contracts) to discuss the evidence supporting our draft report findings as well as what we
perceived as factual inaccuracies with the Department of Navy response. We
recommended the Department of Navy re-evaluate its nonconcurrence for the following
reasons:

   •   The Department of Navy needs to apply the provisions of Federal Acquisition
       Regulation 30.6 to demonstrate objectively whether a noncompliant cost
       accounting practice resulted in a material or immaterial cost impact on
       Department of Defense Cost Accounting Standard-covered contracts. This action
       will obviate any need to rely upon a 'firm belief' that the Government was not
       harmed.

   •   The ‘cost impact demonstrating the immateriality’ referenced in the Department
       of Navy response: -

       (i)    Was limited to an evaluation of the dollar impact across burden centers
              within the same cost accounting period and did not address the $15.4 million
              instance of noncompliance identified in Finding A of this report.

       (ii)   Did not demonstrate materiality in accordance with 48 CFR 9903.305.

       (iii) Did not address the Cost Accounting Standard 406 noncompliance identified
             in this report.

       (iv) Did not originate as a part of an action to administer an allegation of a Cost
            Accounting Standard noncompliance, but instead arose from an October 13,
            2000 Memorandum of Agreement with the contractor detailing procedures
            to be used to close contracts under Federal Acquisition Regulation 42.708
            Quick-closeout procedure.

       (v)    Was not accompanied by a contracting officer determination of
              noncompliance as required by Federal Acquisition Regulation 30.6. Such
              determination shall have stated that the cost accounting practice was
              noncompliant but immaterial, or noncompliant and requiring the submission
              of a general dollar magnitude cost impact calculation.


                                         8
Updated Management Comments: Measure of Materiality of Cost Impact,
Violation of Cost Accounting Standard 406. Subsequent to the May 21, 2010 Assistant
Secretary of the Navy (Research Development and Acquisition) response, the Director,
Program Analysis and Business Transformation, Deputy Assistant Secretary of the Navy,
(Acquisition and Logistics Management) provided an update to the Department of Navy
response dated August 27, 2010. The full text of the response is provided in the
Management Comments section of the report.

The Director, Program Analysis and Business Transformation, responded that the
Department of Navy concurs in principle with the finding. Upon receipt of a signed final
report from the Inspector General asserting a Cost Accounting Standard 406
noncompliance, the Navy will process the alleged noncompliance in accordance with the
procedures at Federal Acquisition Regulation 30.605.

Our Response. The Navy comments were responsive.

Management Comments: Failure to Make a Determination after Receipt of Report
of Alleged Noncompliance from Auditor. The Department of Navy did not concur. In
his response, the Assistant Secretary of the Navy (Research Development and
Acquisition) stated the referenced Defense Contract Audit Agency Report on Agreed-
Upon Procedures No. 02361 - 2003B17900017 was not issued as a Cost Accounting
Standards noncompliance report (i.e., Reportable Audit), and therefore was not treated as
such. He stated that the Defense Contract Audit Agency issued their report at the request
of the Groton administrative contracting officer to evaluate the contractor’s financial
system for potential improvement. He provided that subsequent to the issuance of the
Agreed Upon Procedures report, the Defense Contract Audit Agency issued a report on
the contractor’s Cost Accounting Standards Disclosure Statement, wherein the Defense
Contract Audit Agency reported the contractor’s practices, as described, comply with
applicable Cost Accounting Standards and Federal Acquisition Regulation Part 31 and
are consistent with the contractor’s actual practices. The Assistant Secretary of the Navy
(Research Development and Acquisition) provided that the Defense Contract Audit
Agency has not issued a non-compliance audit relative to the original Agreed-Upon
Procedures report.

Our Response. We disagree. Subsequent to receipt of the Department of Navy
response, we held meetings with Naval Sea Systems Command contracting officials
(Director for Contracts, Deputy Director of Contract Policy, and Director, Shipbuilding
Contracts) to discuss the evidence supporting our draft report findings as well as what we
perceived as factual inaccuracies with the Department of Navy response. We
recommended the Department of Navy re-evaluate its nonconcurrence with this finding
for the following reasons:
    • The Department of Navy response fails to recognize that there is no provision in
        the Federal Acquisition Regulation that would release Groton from responding to
        a report of an allegation of Cost Accounting Standard noncompliance due solely
        to the type of report issued by the auditor. Federal Acquisition Regulation


                                        9
       30.602-2(a) simply required that "Within 15 days of the receipt of a report of
       alleged noncompliance from the cognizant auditor, the ACO shall make an initial
       finding of compliance or noncompliance and advise the auditor."

   •   Existing Groton Business Operations Department records refute the claim made
       by the Department of Navy that the Defense Contract Audit Agency issued their
       report at the request of the Groton administrative contracting officer to “evaluate
       the contractor’s financial system for potential improvement.” Specifically, the
       August 20, 2003 Groton request to the Defense Contract Audit Agency for audit
       services stated:

       1. At this time our office would like to request your audit assistance in
           performing a comprehensive review of prior year overhead
           adjustments made by [the contractor] on an annual basis.

       2. Specifically, we would like your office to review said adjustments
           relative to
           • The requirements of CAS [Cost Accounting Standards]
           • GAAP
           • Share Ratios on Various Affected Contracts
           • Escalation Impact of Prior Year Adjustments
           • Billing Practices on Outdated or Inactive Contracts

   •   The contractor was using the same allegedly noncompliant practice reported by
       the Defense Contract Audit Agency on September 14, 2004 to record prior period
       adjusting journal entries totaling $14.1 million on its fiscal year 2006 accounting
       records. The Defense Contract Audit Agency alleged the contractor was in
       noncompliance with Cost Accounting Standards 401 and 402 and that the
       contractor should be required to bill costs for all contracts in the same accounting
       period that the costs were recognized.

We acknowledge that the Defense Contract Audit Agency issued on November 17, 2006
a report on the contractor's revised Disclosure Statement, and that this report did not
include the same allegation of noncompliance. However, the SUPSHIP Groton
administrative contracting officer responsible for Cost Accounting Standard
administration could not demonstrate that she had ever addressed and resolved the
previous allegations of noncompliance reported by the Defense Contract Audit Agency
on September 14, 2004. The Federal Acquisition Regulation assigns responsibility for
Cost Accounting Standard administration to the administrative contracting officer. The
Groton administrative contracting officer should have acted on the September 14, 2004
report within 15 days of receipt. As of the date of our draft report, March 23, 2010, the
SUPSHIP Groton administrative contracting officer had not met that responsibility.

Updated Management Comments: Measure of Materiality of Cost Impact,
Violation of Cost Accounting Standard 406. In the August 27, 2010 management
comments, the Director, Program Analysis and Business Transformation, responded that


                                          10
      the Department of Navy concurs in principle and that the Groton Business Operations
      Department had located a January 31, 2005 record requesting the contractor respond to
      the September 14, 2004 Defense Contract Audit Agency report.

      Management Comments: Office of Inspector General Comments, Groton
      Proposed Corrective Action. The Department of Navy partially concurred with the
      finding on their corrective action plan for addressing Cost Accounting Standards
      administration and providing for the continued use of the Reservation of Rights practice.
      In his response, the Assistant Secretary of the Navy (Research Development and
      Acquisition) stated that Groton believes that use of Reservation of Rights is in
      compliance with the Federal Acquisition Regulation, but acknowledges the technique
      should only be used in the most compelling circumstances to settle issues that would
      unreasonably delay settlement of final rates. He stated that there is no prohibition in the
      Federal Acquisition Regulation against paying the cost conditionally and later retrieving
      any excess amount paid, with interest, if the cost is determined to be unallowable or
      unallocable.

      Our Response. We disagree. Through its use of the ‘Reservation of Rights’ practice,
      Groton violated 41 U.S.C. 422 – Cost Accounting Standards Board and Cost Accounting
      Standard 406, as reported herein. In only one circumstance does the Federal Acquisition
      Regulation provide for the deferral of a cost issue into a future period; when settling costs
      related to legal and other proceedings (Federal Acquisition Regulation 31.205-47). The
      Federal Acquisition Regulation does not provide for the deferral of any other type of cost
      issue. We find no compelling reason to allow the ‘Reservation of Rights’ practice to
      continue as proposed by the Department of Navy.

      Our attempts to engage Naval Sea Systems Command contracting officials regarding our
      draft audit report position on ‘Reservation of Rights’ have not been responsive. We
      request that the Navy reconsider and eliminate the use of its ‘Reservation of Rights’
      practice as recommended.

Recommendations, Management Comments, and Our Response.

Recommendation A.
1.    The Business Operations Officer, Supervisor of Shipbuilding, Conversion and
Repair, Groton:

     a. Implement the proposed corrective action plan identified in his July 16, 2009,
        memorandum to the Department of Defense Inspector General, Office of the
        Assistant Inspector General for Audit Policy and Oversight.

        Management Comments. The Department of Navy concurred with the
        recommendation.


                                               11
   Our Response. The Department of Navy comments were responsive.

b. Within 3 months of this issuance of this report, comply with the requirements of
   Federal Acquisitions Regulation Subpart 30.6 CAS Administration, and address
   the allegations of noncompliance included in Defense Contract Audit Agency
   Report No. 02361-2003B17900017, Report on Application of Agreed-Upon
   Procedures, Prior Year Overhead Adjustments, including each Statement of
   Conditions and Recommendations identified by Defense Contract Audit Agency in
   that report.

   Management Comments. In his May 21, 2010 response, the Assistant Secretary of
   the Navy, (Research Development and Acquisition) responded that the Department of
   Navy did not concur with this recommendation. He commented that the referenced
   Defense Contract Audit Agency Agreed-Upon Procedure Report was not issued as a
   Cost Accounting Standard noncompliance audit report (i.e., Reportable Audit) and
   therefore was not treated as such. Further, he stated that the Defense Contract Audit
   Agency issued their report at the request of the Groton administrative contracting
   officer to evaluate the contractor’s financial system for potential improvement. And
   that subsequent to issuance of the Agreed-Upon Procedures Report, a complete
   Disclosure Statement audit was performed by the Defense Contract Audit Agency and
   the results of that audit did not disclose any issues or alleged Cost Accounting Standard
   noncompliance from the Agreed-Upon Procedures report.

   However, in a subsequent response dated August 27, 2010, the Director, Program
   Analysis and Business Transformation, Deputy Assistant Secretary of the Navy,
   (Acquisition and Logistics Management) commented that the Navy concurs in principle
   with Recommendation A.1.b. He stated that the Groton Business Operations
   Department had located a January 31, 2005 record requesting the contractor respond to
   the September 14, 2004 Defense Contract Audit Agency report.

   Our Response. We agree with the Navy’s change in position to a concurrence.
   However, the comments are not responsive in that they do not acknowledge intent by
   the Navy to take action to implement the recommendation and comply with the
   requirements of Federal Acquisitions Regulation Subpart 30.6 CAS Administration and
   fully address the allegations of noncompliance reported by the Defense Contract Audit
   Agency in Report No. 2361-2003B17900017. The Department of Navy needs to
   respond to this recommendation with action based milestones for compliance within 30
   days of the issuance of this report.

c. Within 3 months of the issuance of this report, demonstrate using the criteria
   provided at Federal Acquisition Regulation Subpart 9903.305 – Materiality, that
   use of Post Audit Disallowance Factor for the period April 17, 1992, to the
   contractor’s fiscal year ending in 2009 did or did not result in a material cost
   impact on contracts covered by the Cost Accounting Standards clause.


                                         12
   Management Comments. In his May 21, 2010 response, the Assistant Secretary of
   the Navy, (Research Development and Acquisition) responded that the Department of
   Navy did not concur with the recommendation. He responded that the Defense
   Contract Audit Agency never issued a Cost Accounting Standards noncompliance audit
   and therefore the contractor had no requirement to provide a cost impact on a contract
   basis. He also stated that SUPSHIP Groton does not have the data available to
   determine the cost impact on a contract basis.

   The Navy updated its response on August 27, 2010. The Director, Program Analysis
   and Business Transformation, commented that the Navy concurs in principle with
   Recommendation A.1.c and that upon receipt of a signed final report from DoDIG
   asserting a Cost Accounting Standard 406 noncompliance, the Navy will process the
   alleged noncompliance in accordance with the procedures at Federal Acquisition
   Regulation 30.605.

   Our Response. We agree with the Navy’s change in position to a concurrence in
   principle. However, the comments are not responsive in that they do not acknowledge
   intent by the Navy to take action to implement the recommendation and comply with
   the requirements of Federal Acquisitions Regulation Subpart 30.6 CAS Administration
   and fully address the allegation of noncompliance with Cost Accounting Standard 406
   included in this report. The Department of Navy needs to respond to this
   recommendation with action based milestones for compliance within 30 days of the
   issuance of this report.

d. For open years starting with the contractor’s fiscal year 2010, negotiate and settle
   contractor final indirect cost rates in accordance with Federal Acquisition
   Regulation 52.216-7 and Cost Accounting Standard 406.

   Management Comments. The Department of Navy concurred with the
   recommendation.

   Our Response. The Navy comments were responsive. However, the comments do
   not acknowledge intent by the Navy to take action to implement the recommendation
   and comply with Federal Acquisition Regulation 52.216-7 and Cost Accounting
   Standard 406. The Department of Navy needs to respond to this recommendation with
   action based milestones demonstrating compliance for contractor year 2010 within 30
   days of the issuance of this report.

e. Eliminate the ‘Reservation of Rights’ procedure from use in negotiating and
   settling final indirect cost rates.

   Management Comments. The Department of Navy did not concur with the
   recommendation. The Assistant Secretary of the Navy, (Research Development and
   Acquisition) provided that the Naval Sea Systems Command firmly believes that in
   limited circumstances, Reservation of Rights is in the best interest of the Government


                                         13
        and permissible under the Federal Acquisition Regulation. In his response, The
        Assistant Secretary of the Navy, (Research Development and Acquisition) stated that
        Federal Acquisition Regulation 1.102(d) provides that “The role of each member of the
        Acquisition Team is to exercise personal initiative and sound business judgment in
        providing the best value product or service to meet the customer’s needs. In exercising
        initiative, Government members of the Acquisition Team may assume if a specific
        strategy, practice, policy or procedure is in the best interests of the Government and is
        not addressed in the Federal Acquisition Regulation, nor prohibited by law (statute or
        case law), Executive order or other regulation, that the strategy, practice, policy or
        procedure is a permissible exercise of authority.”

        Our Response. We disagree and recommend the Department of Navy re-evaluate its
        nonconcurrence with this recommendation. The Department of Navy did not identify
        the “limited circumstances” wherein the ‘Reservation of Rights’ practice is in the best
        interest of the Government. The Department of Navy cites Federal Acquisition
        Regulation 1.102(d) as precedent for allowing Groton to continue use of the
        ‘Reservation of Rights’ practice. We note that Federal Acquisition Regulation 1.102(d)
        is predicated on a viable Acquisition Team. We did not find a viable acquisition team
        at Groton. We did not witness the exercise of “personal initiative” or “sound business
        judgment.” Nor did we observe where they had “provided best value product or
        service” to meet the needs of the US Government or taxpayer. The risks of allowing
        the ‘Reservation of Rights’ practice to continue outweigh any tangible benefit arising
        from use under unspecified “limited circumstances.” Further, the Department of Navy
        argues that existing law or regulation does not prohibit use of the ‘Reservation of
        Rights’ practice. The ‘Reservation of Rights’ practice used by Groton personnel
        violated 41 U.S.C. 422 – Cost Accounting Standards Board and Cost Accounting
        Standard 406. The ‘Reservation of Rights’ practice also violates Federal Acquisition
        Regulation 42.7 Indirect Rates and Department of Defense Instruction 7640.02 Policy
        for Follow-up on Contract Audit Reports (Department of Defense Inspector General
        Report No. D-2008-06-005, dated May 6, 2008, pages 3-6).

2.  The Director, Contracts Division, Shipbuilding Division, Naval Sea Systems
Command:

    a. Oversee the actions taken by the Business Operations Officer, Supervisor of
       Shipbuilding, Conversion and Repair, Groton, in response to
       Recommendation A.1.

        Management Comments. The Department of Navy concurred with the
        recommendation.

        Our Response. The Navy comments were responsive.




                                              14
b. Perform a review of each Supervisor of Shipbuilding, Conversion and Repair
   contract administration office to determine whether the cognizant Business
   Operations Department:
   (i)   Establishes contractor final indirect cost rates in accordance with Federal
         Acquisition Regulation 52.216-7.
   (ii) Administers cost accounting standards noncompliances in accordance with
         Federal Acquisition Regulation 30.6.
   (iii) Prohibits the use of the ‘Reservation of Rights’ practice as a tool in settling
         contractor final indirect rates for a contractor cost accounting period.

   Management Comments. The Department of Navy concurred with the
   recommendations at A.2.b.(i) and A.2.b.(ii).
   The Department of Navy did not concur with the recommendation in A.2.b.(iii),
   commenting that the Director, Shipbuilding Contracts Division supports the limited use
   of Reservation of Rights,. The Assistant Secretary of the Navy, (Research
   Development and Acquisition) provided that approval for use of the ‘Reservation of
   Rights’ practice will require advance approval by the Director for Contracts, Naval Sea
   Systems Command.

   Our Response. We disagree with the nonconcurrence on Recommendation A.2.b(iii)
   and recommend the Department of Navy re-evaluate its nonconcurrence. (See Our
   Response to Recommendation 1.e, above.) Adding advance approval by the Director
   for Contracts will only allow the continuance of a practice that violates the Federal
   Acquisition Regulation and Cost Accounting Standards. The Department of Navy
   needs to reconsider its response and provide additional comments within 30 days of the
   issuance of this report.

c. Take corrective action to gain compliance with Federal Acquisition Regulation
   52.216-7 and Federal Acquisition Regulation 30.6 for noncompliances identified as
   a result of the review performed in response to Recommendations A.2.b.

   Management Comments. The Department of Navy concurred with the
   recommendation.
   Our Response. The Navy comments were responsive.

d. By November 30, 2010, provide the Assistant Inspector General for Audit Policy
   and Oversight a copy of the review results from Recommendation A.2.b. and any
   associated reports and corrective action plans related thereto.

   Management Comments. The Department of Navy concurred with the
   recommendation.

   Our Response. The Navy comments were responsive.




                                        15
    B. Settlement Agreements Wrongly Offset
       Contract Debts, Lack Sufficient Supporting
       Documentation
    A former Deputy Officer, Groton Business Operations Department, executed settlement
    agreements that wrongly liquidated $3,882,926 in existing contract debts and potentially
    violated the Antideficiency Act. The former Deputy Officer used the $3,882,926 in
    liquidated contract debt to offset $3,615,860 in unpaid claims while allowing the contractor
    to retain the remaining $267,066 for use in offsetting future negotiated amounts. Both
    actions violated the Federal Acquisition Regulation. One unpaid claim of $1,696,860
    represented amounts in excess of available funding on a contract. Coupled with incomplete
    contract case file records, Groton Business Operations Department personnel were unable to
    demonstrate that two Memoranda of Agreement executed with the contractor in 2004
    complied with the terms of the contracts and safeguarded the interests of the United States
    Government. Because of this Contract Audit Follow Up project, the contractor paid the
    United States Treasury $267,066 owed to the U.S. Government since the culmination of the
    second Memorandum of Agreement in September 2004. Naval Sea Systems Command
    should reassess the action taken to liquidate $3,882,926 in contract debt and take action to
    recover the $3,615,860 in contract debt offset against unpaid claims. Additionally, the
    Assistant Secretary of the Navy should require the Navy Comptroller’s Office to initiate
    preliminary reviews and take potential corrective actions for this potential violation of the
    Antideficiency Act.

    2004 Memoranda of Agreement. The former Deputy Officer, Groton Business Operations
    Department, determined that $965,257 in contractor claimed indirect costs for contractor
    fiscal years 1997 through 2001 were unallowable. Subsequently, during a global settlement
    of numerous contract issues, the former Deputy Officer offset these contract unallowable
    costs 9 and other contract debts against two unpaid claims owed by the Government to the
    contractor.

    The global settlements were recorded in two Memoranda of Agreement executed by the
    former Deputy Officer, a warranted contracting officer, and the contractor. The two
    memoranda are the Elements of the March 2004 Settlement, executed on March 22, 2004,
    and the 2004 Memorandum of Agreement, executed on September 30, 2004.

    The following items illustrate the complexity of the September 30, 2004, Memorandum of
    Agreement:

             •   Thirty-three (33) contract issues were associated with this Agreement.

9
 This offset was made in lieu of adjusting the 'Post Audit Disallowance Factor', the noncompliant practice for
establishing final indirect rates reported upon in Finding A.


                                                        16
             •    Both parties agreed that any of the 17 issues that were set aside in a ‘Reservation
                  of Rights’ would be resolved in negotiations to take place in the future.
             •    Both parties desired to resolve several other outstanding issues relative to other
                  Defense Contract Audit Agency audit reports, Cost Accounting Change cost
                  impacts, and numerous other issues that both parties were unable to settle
                  independently at the time.
             •    Both parties desired to establish Final Overhead Costs and Other Direct Labor
                  Costs for fiscal years 1997 through 2001.
             •    The contractor agreed to reimburse the Government a total of $3,882,926
                  associated with five identified issues.
             •    The Government agreed to reimburse the contractor a total $3,615,860 associated
                  with the settlement of two issues: pension costs and a contract funding short-fall.
             •    Both sides agreed that a balance of $267,066 still owed the Government would
                  remain with the contractor and would be used to offset future negotiated amounts.

     On inquiry, the former Deputy Officer, Groton Business Operations Department, advised the
     Department of Defense Inspector General auditors that the Agreements were a “means to
     clear old actions.” When asked if he had prepared business clearance memoranda 10 to justify
     his actions, he stated that the 2004 Memoranda were below the dollar threshold for requiring
     a clearance and that he did not require an approved business clearance memorandum to
     execute either agreement.

     Noncompliant Offset of Contract Debt for Unpaid Bills. The September 30, 2004,
     Memorandum of Agreement and supporting records demonstrate that the former Deputy
     Officer liquidated the following contract debts against two unpaid amounts due the contractor
     on existing contracts:




10
   A properly executed business clearance memorandum would have included the contractor’s proposal and/or
claim for the items negotiated in each Agreement, and would have demonstrated that the settlements reached were
fair and reasonable and conformed to Department of Defense acquisition procedures and regulations. They would
have showed all significant facts considered in reaching the final business decision, served as a historical record of
the business/pricing aspects of the settlement as well as the baseline for potential defective pricing actions.


                                                          17
                                                                      Contractor        Unpaid
                                 Item Description                       Debts           Amounts


                 Indirect cost settlement, 1997 through 2001.             $965,257

                 Interest assessment, indirect cost settlement,
                 1997 through 2001.                                       $307,775
                 Interest and penalties, indirect cost settlements,
                 1989 through 1992.                                       $193,154

                 Contract overpayment, Contract No.
                 N00024-95-C-2101.                                        $709,540

                 Price adjustment, change in a contractor Cost
                 Accounting Standards practice.                         $1,707,200
                 Pension costs on Contract No.
                 N00024-96-C-2108, a SEAWOLF class
                 submarine.                                                              $1,919,000
                 Funding short-fall, Contract No.
                 N00024-00-C-8501, a fixed price contract for
                 submarine overhaul.                                                     $1,696,860
                       Total                                           $ 3,882,926      $ 3,615,860
                 Difference, Contract Debt Allowed to Remain
                 with Contractor                                         $ 267,066

     Retrieval of Monies Remaining with the Contractor. Federal Acquisition Regulation
     32.602(a) prohibits the contracting officer from allowing a contractor to retain contract
     debts 11 to cover amounts that may become payable in future periods. At the culmination of
     the debt liquidation described above, the former Deputy Officer allowed $267,066 in contract
     debt to remain with the contractor to be “used to offset future negotiated amounts.”

     On July 16, 2009, the Groton Business Operations Officer advised the Department of
     Defense Inspector General, Office of the Assistant Inspector General for Audit Policy and
     Oversight, by letter that the contractor had issued a check payable to the U.S. Treasury for
     $267,066. The check was dated June 24, 2009, and represented the contract debt remaining
     with the contractor at the culmination of the September 30, 2004, Memorandum of
     Agreement.

     Violation of Contracting Officer Responsibilities, Contract Debt. The former Deputy
     Officer violated paragraph (a) 12 of Federal Acquisition Regulation 32.602 (see Department of

11
   Federal Acquisition Regulation 32.601provides at paragraph (a) that contract debts are amounts that – (1) Have
been paid to a contractor to which the contractor is not currently entitled under the terms and conditions of the
contract; or (2) Are otherwise due from the contractor under the terms and conditions of the contract. Paragraph (b)
provides examples of contract debts, which includes but is not limited to price adjustments resulting from changes in
a Cost Accounting Standard cost accounting practice, and duplicate or erroneous payments.
12
   Federal Acquisition Regulation 32.602(a) states “The contracting officer has primary responsibility for identifying
and demanding payment of contract debts except those resulting from errors made by the payment office. The
contracting officer shall not collect contract debts or otherwise agree to liquidate contract debts (e.g., offset the


                                                           18
    Navy Response comments, Finding B, and Department of Navy response comments,
    Recommendation B.4) by liquidating contract debts totaling $3,882,926 and offsetting this
    amount against $3,615,860 in unpaid bills, in this case unpaid amounts on two contracts, as
    follows:

    Contract No. N00024-96-C-2108. In Finding C of this report, we describe the substance of
    the $1,919,000 in unpaid contractor pension costs said to exist on a submarine contract.

    Contract No. N00024-00-C-8501. A $1,696,860 funding short-fall on Contract No. N00024-
    00-C-8501, a fixed price contract for submarine overhaul. As detailed below, the former
    Deputy Officer settled eight unadjudicated change order proposals for an amount that
    exceeded the available funding on the contract by $1,696,860.

                 Fixed Price, Contract No. N00024-00-C-8501,
                 as of June 27, 2002                                                      $21,216,943
                 Contractor Proposed Price, Eight Change Order
                 Proposals                                                $2,684,579

                 Settlement Price, Eight Change Order Proposals           $2,317,171

                 New Price, Contract No. N00024-00-C-8501                                 $23,534,114
                 Funding Available on Contract                                            $21,837,254

                 Funding short-fall                                                       $1,696,860

    Rather than obtain additional funding through the upward obligation process, the former
    Deputy Officer circumvented internal controls and offset the unpaid amount by liquidating
    existing contract debt. By liquidating these contracts debts himself, the former Deputy
    Officer violated paragraph (b) 13 of Federal Acquisition Regulation 32.602 by authorizing the
    liquidation of contract debts, a responsibility specifically assigned to the government
    payment office.

    Potential Violation of 31 U.S.C. 1341 Limitations on Expending and Obligating
    Amounts. Public statute 31 U.S.C. 1341(a)(1) states,

                  “An officer or employee of the United States Government or of the
                  District of Columbia government may not – (A) make or authorize
                  an expenditure or obligation exceeding an amount available in an
                  appropriation or fund for the expenditure or obligation…”

    On inquiry regarding the reason for the delay in negotiating the eight unadjudicated change
    orders, the former Deputy Officer advised the Department of Defense Inspector General

amount of the debt against existing unpaid bills due the contractor, or allow contractors to retain contract debts to
cover amounts that may become payable in future periods).”
13
   Federal Acquisition Regulation 32.602(b) states “The payment office has primary responsibility for -- (3)
Authorizing the liquidation of contract debts in accordance with agency procedures.”


                                                          19
     auditors that lack of available funding had caused the delays, and that all funding had
     expired. To get new funding would have required going through the “upward obligation
     process.” When asked to confirm the accuracy of the statements made by the former Deputy
     Officer, the current Groton Business Operations Officer acknowledged that using offsetting
     funds was not appropriate and in hindsight, the proper approach would have been to use the
     upward obligation process.

     By authorizing and approving the settlement of the eight change order proposals for a price
     of $2,317,171, the former Deputy Officer may have obligated the U.S. Government for an
     expenditure that exceeded the amount of funding available on the contract by $1,696,860,
     potentially violating 31 U.S.C. 1341(a)(1)(A). Additionally, the potential exists that the
     actions taken by the former Deputy Officer violated other provisions of the Antideficiency
     Act, including those identified in Financial Management Regulation, Volume 14, Chapter 2,
     paragraph 020103.

     Failure to Execute Business Clearance Memoranda. The decision by the former
     Deputy Officer to forego preparing and obtaining approved business clearance memoranda
     prior to executing either 2004 Agreement violated Federal Acquisition Regulation 1.602-1 –
     Authority14, and Federal Acquisition Regulation 1.602-2 – Responsibilities 15. Personnel in
     the Groton Business Operations Department had insufficient records and evidence to
     demonstrate that either 2004 Agreement (i) complied with all requirements of law, executive
     orders, regulations, and all other applicable procedures, and (ii) ensured compliance with the
     terms of the contract and safeguarded the interests of the United States.

     Failure to Maintain Contract Files. The Groton Business Operations Department did not
     have case file documentation available for either 2004 Agreement that met the criteria at
     Federal Acquisition Regulation 4.801 16. The Groton Business Operations Officer stated that
     case files had existed for all contract actions involved in both settlement agreements, but that
     some contract files were subsequently misplaced or discarded. He also stated that Groton

14
    Federal Acquisition Regulation 1.602-1 – Authority, at subparagraph (b) requires in part that “No contract shall
be entered into unless the contracting officer ensures that all requirements of law, executive orders, regulations, and
all other applicable procedures, including clearances and approvals, have been met.” A business clearance
memorandum is a means to gain clearance and approval.
15
    Federal Acquisition Regulation 1.602-2 – Responsibilities, states in part that “Contracting officers are responsible
for ensuring performance of all necessary actions for effective contracting, ensuring compliance with the terms of
the contract, and safeguarding the interests of the United States in its contractual relationships.”
16
   Federal Acquisition Regulation Subpart 4.8 prescribes requirements for establishing, maintaining, and disposing
of contract files. Federal Acquisition Regulation 4.801 provides at subparagraph (a) that "The head of each office
performing contracting, contract administration, or paying functions shall establish files containing the records of all
contractual actions." At paragraph (b) it provides that "The documentation in the files (see 4.803) shall be sufficient
to constitute a complete history of the transaction for the purpose of --

                  (1) Providing a complete background as a basis for informed decisions at each step in the
                  acquisition process;
                  (2) Supporting actions taken;
                  (3) Providing information for reviews and investigations; and
                  (4) Furnishing essential facts in the event of litigation or congressional inquiries.


                                                          20
  Business Operations Department does not have a separate policy or procedure that
  implements Federal Acquisition Regulation 4.801.

  Without business clearance memoranda and complete case file documentation to support the
  actions taken by the former Deputy Officer, Groton Business Operations Department
  personnel were not able to demonstrate that the 2004 Agreements represented effective
  contracting, ensured compliance with the terms of the contract, and safeguarded the interests
  of the United States in its contractual relationships.

Management Comments on the Finding and Our Response.
     The Assistant Secretary of the Navy (Research Development and Acquisition), provided
     the Department of Navy Response dated May 21, 2010. A summary of the comments is
     provided below. The full text of the response is provided in the Management Comments
     section of the report.

     Management Comments: Violation of Contracting Officer Responsibilities,
     Contract Debt. The Department of Navy did not concur. In his comments, the Assistant
     Secretary of the Navy (Research Development and Acquisition) stated that the provisions
     at Federal Acquisition Regulation 32.602 cited by the Inspector General were not in the
     Federal Acquisition Regulation in 2004 when these actions occurred. The provisions
     were added to the Federal Acquisition Regulation by Federal Acquisition Circular (FAC)
     2005-27 dated September 17, 2008, with an effective date of October 17, 2008. The
     Assistant Secretary of the Navy (Research Development and Acquisition) stated that
     Groton has and will continue to comply with the revised Federal Acquisition Regulation
     provisions. He stated that the former Deputy Officer exercised his authority in good faith
     under Federal Acquisition Regulation 1.102, the provisions of Federal Acquisition
     Regulation Part 32 that were in effect at the time of the Agreement, and DoD Directive
     7640.2. The Assistant Secretary of the Navy (Research Development and Acquisition)
     provided that, “Federal Acquisition Regulation 32.606(d) in effect in 2004 when these
     actions occurred stated “Except in cases in which an agreement has been entered into for
     deferment of collections (32.613) or bankruptcy proceedings against the contractor have
     been initiated, the contractor shall be required to liquidate the debt by – (1) cash payment
     in a lump sum on demand; or (2) credit against existing unpaid bills due the contractor.”

     The Assistant Secretary of the Navy (Research Development and Acquisition) also stated
     that DoD Directive 7640.02 provides “The responsibility for reaching agreement with the
     contractor is the contracting officer’s, and he has wide latitude and discretion in that
     regard.”

     Our Response. First, we disagree with the Department of Navy position that Groton
     has complied with the revised Federal Acquisition Regulation provisions. Groton was
     not in compliance with the revised provisions of Federal Acquisition Regulation
     32.602(a) when we initiated our oversight project in 2009. Federal Acquisition
     Regulation 32.602(a) as revised prohibited the contracting officer from allowing a


                                             21
contractor to retain contract debts to cover amounts that may become payable in future
periods. We found that the contractor had retained $267,066 in contract debts since the
culmination of the September 30, 2004, Memorandum of Agreement. As noted in that
agreement, the amount retained was to be “used to offset future negotiated amounts.”
Groton was clearly in violation of Federal Acquisition Regulation 32.602(a) as revised;
hence, the contractor’s June 24, 2009 payment of $267,066 to the U.S. Treasury.

Second, we disagree with the Department of Navy position that the former Deputy
Officer exercised his authority in good faith under the provisions of Federal Acquisition
Regulation Part 32 that were in effect at the time of the Agreement. We believe the
Department of Navy should reconsider its nonconcurrence with this Finding. The
Department of Navy provided no factual basis to support its claim that the former Groton
Deputy Officer “…exercised his authority in good faith under Federal Acquisition
Regulation 1.102, the provisions of Federal Acquisition Regulation Part 32 that were in
effect at the time of the Agreement, and DoD Directive 7640.2.”

Subsequent to receipt of the Department of Navy response, we evaluated whether the
actions taken by the former Deputy Officer, Groton Business Operations Department to
offset contract debts totaling $3,882,926 against $3,615,860 in unpaid bills complied with
the requirements of Federal Acquisition Regulation 32.606(d) in effect on September
30, 2004. We requested specific records and documentation from the Naval Sea Systems
Command to substantiate compliance. In response, the Director, Shipbuilding Contracts
advised the DoD OIG auditors that Groton had no additional documents that would be
responsive to our request and that Groton had provided all available records to the DoD
OIG during the course of the review.

Based upon the review of our existing records obtained during the course of this
oversight review, we found Groton had never provided any records to demonstrate that
the former Deputy Officer:

   •   Had complied with Federal Acquisition Regulation 32.606(c) in effect on
       September 30, 2004 and established a control record for each of the five contract
       debts totaling $3,882,926, including –

       (3)   A description of the debt,
       (4)   The amount of debt and the appropriation to be credited,
       (5)   The date the debt was determined,
       (6)   The dates and demands for payment, and
       (9)   The status of collections, including (i) actions reported to the disbursing
             officer, and (ii) funds requested to be withheld by the disbursing officer.

   •   Had complied with Federal Acquisition Regulation 32.606(b) in effect on
       September 30, 2004 and fairly considered both the Government’s claim for
       payment of the five outstanding debts totaling $3,882,926, as well as the two
       outstanding unpaid bills against the Government totaling $3,615,860.


                                        22
   •   Had complied with Federal Acquisition Regulation 32.605(a) in effect on
       September 30, 2004 by fully cooperating with contract financing offices,
       disbursing officials, and auditors, to:

       (2)    Ascertain the correct amount of the debt;
       (3)    Act promptly and effectively to collect the debt.

Additionally, as detailed in Finding C, we find that the ‘unpaid bill’ for pension costs that
was used by the former Deputy Officer to offset $1,919,000 of contractor debt was in
effect consideration given to the contractor for agreeing to circumvent the requirements
of the 1986 Advance Agreement Pension Cost when entering into Contract No. N00024-
96-C-2108. We find that neither Federal Acquisition Regulation 1.102, DoD Directive
7640.02, nor any other provision in the Federal Acquisition Regulation allow for such
action by a contracting officer.

We note that the Director, Budget Policy and Procedures Division, Office of Budget,
Assistant Secretary of the Navy (Financial Management and Comptroller) in her August
20, 2010 comments (see the Management Comments section of the report) reported that

             “SUPSHIP contracting officials improperly authorized contract
             debt liquidation on various Ship Construction Navy (SCN)
             contracts in the amount of $3,882,926.” [emphasis added]

The provisions of Federal Acquisition Regulation 32.606(d) that governed debt
liquidation on September 30, 2004 did provide that the contracting officer had primary
responsibility for debt liquidation, including offsetting debts against existing unpaid bills.
However, Naval Sea Systems Command contracting officials were not able to
demonstrate that the former Deputy Officer, Groton Business Operations Department
acted responsibly to protect the Government’s interest when offsetting $3,882,926 in
contractor debt against $3,615,860 in unpaid bills. They did not demonstrate that the
former Deputy Officer:

   •   Cooperated with contract financing offices, disbursing officials, and auditors to
       ascertain the correct amount of the debt, as required by Federal Acquisition
       Regulation 32.605(a)(2),

   •   Established a control record for each of the five contract debts in accordance with
       totaling $3,882,926 as required by Federal Acquisition Regulation 32.606(c), and

   •   Fairly considered both the Government’s claim for payment of the five
       outstanding debts totaling $3,882,926 and the contractor’s claim of two
       outstanding unpaid bills totaling $3,615,860, as required by Federal Acquisition
       Regulation 32.606(b).




                                         23
Management Comments: Potential Violation of 31 U.S.C. 1341 Limitations on
Expending and Obligating Amounts. By Memorandum dated August 20, 2010, the
Director, Budget Policy and Procedures Division, Office of Budget, Assistant Secretary
of the Navy, (Financial Management and Comptroller) responded to this finding. The
full text of the response is provided in the Management Comments section of the report.

In her comments, the Director stated that the actions taken by the former Deputy Officer,
Groton Business Operations Department violated the Purpose Statute, 31 U.S.C. §
1301(a), but did not result in an Antideficiency Act violation. She provided the following
explanation:

           “To offset expired funding and a funding short-fall of $1,696,860
           on a [fiscal year 2001] O&M,N [Operations & Maintenance,
           Navy] funded submarine overhaul contract, N00024-00-C-8501,
           SUPSHIP contracting officials improperly authorized contract debt
           liquidation on various SCN [Ship Construction Navy] contracts in
           the amount of $3,882,926. These liquidated [Ship Construction
           Navy] contract debts owed to the Department of Navy were used
           to offset a total of$3,615,860 in unpaid claims owed the contractor
           for settlement of two issues; (1) pension costs related to a [Ship
           Construction Navy] funded submarine nuclear refueling overhauls
           contract (N00024-96-C-2108) and (2) the aforementioned funding
           shortfall for the [Operations & Maintenance, Navy] funded
           submarine overhaul contract (N00024-00-C-850 1). The use of
           liquidated [Ship Construction Navy] funds to offset debts owed to
           the contractor for the [Operations & Maintenance, Navy] funded
           contract resulted in a violation of the Purpose Statute,
           31 U.S.C. § 1301(a). However, the obligation of funds from the
           [Ship Construction Navy] appropriation to offset [Operations &
           Maintenance, Navy] funds owed the contractor did not result in an
           ADA [Antideficiency Act] violation. This is because there are
           sufficient balances legally available from the current appropriation
           [fiscal year 2010 Operations & Maintenance, Navy] available for
           the same purpose.”

Our Response. The Navy comments were responsive.

Management Comments: Failure to Execute Business Clearance Memoranda. The
Department of Navy concurred in principle with this finding. The Assistant Secretary of
the Navy (Research Development and Acquisition) responded that a consolidated
business clearance memorandum should have been prepared to demonstrate compliance
with the applicable Federal Acquisition Regulation provisions, but that Groton did obtain
legal advice on many of the underlying issues and prepared business case documentation
for the individual items covered by the 2004 MOA.



                                        24
      Our Response. We consider the Department of Navy comments non-responsive. We
      reiterate our finding that the decision by the former Deputy Officer to forego preparing
      and obtaining approved business clearance memoranda prior to executing either 2004
      Agreement violated Federal Acquisition Regulation 1.602-1 – Authority, and Federal
      Acquisition Regulation 1.602-2 – Responsibilities.

      Management Comments: Failure to Maintain Contract Case Files. The
      Department of Navy concurred with the finding.

      Our Response. The Navy comments were responsive.

Recommendations, Management Comments, and Our Response.

Recommendation B.
1. The Business Operations Officer, Supervisor of Shipbuilding, Conversion and Repair,
   Groton:

     a. Within 3 months of the issuance of this report, establish and implement policies
        and procedures that ensure that all Groton contracting officers have met the
        requirements of law, executive orders, regulations, and all other applicable
        procedures, including clearances and approvals, prior to executing all future
        Memoranda of Agreement with the contractor.

     b. Within 3 months of the issuance of this final report, perform a review of all
        existing Memoranda of Agreement to ensure that each one meets the requirements
        of law, executive orders, regulations, and all other applicable procedures,
        including clearances and approvals, prior to its execution with the contractor.

     c. Immediately issue a directive memorandum to all Groton Business Operations
        Department contracting officers and contracting personnel advising them of their
        duty to comply with Federal Acquisition Regulation 32.602 – Responsibilities,
        Federal Acquisition Regulation 1.602-1 – Authority and Federal Acquisition
        Regulation 1.602-2 – Responsibilities, when contracting for the United States.

      Management Comments. The Department of Navy concurred with the
      recommendations.

      Our Response. The Navy comments were responsive.

2.    The Business Operations Officer, Supervisor of Shipbuilding, Conversion and
Repair, Groton:




                                              25
    a. Within 3 months of this issuance of this report, establish and implement policies
       and procedures that ensure that the Groton Business Operations Department
       establishes and maintains contract case files containing the records of all
       contractual actions sufficient to constitute a complete history of the transaction for
       the purpose of:
        (1)   Providing a complete background as a basis for informed decisions at each
              step in the acquisition process;
        (2)   Supporting actions taken;
        (3)   Providing information for reviews and investigations; and
        (4)   Furnishing essential facts in the event of litigation or Congressional inquiries.
     b. Within 6 months of the issuance of this final report, perform a review of all
        existing case file records to determine that each contains a record of all
        contractual actions sufficient to ensure a complete history of the transaction.
     c. Immediately issue a directive memorandum to all Groton Business Operations
        Department contracting officers and contracting personnel advising them of their
        duty to comply with Federal Acquisition Regulation Subpart 4.8 – Government
        Contract Files, when performing contracting duties for the United States.

      Management Comments. The Department of Navy concurred with the
      recommendations.

      Our Response. The Navy comments were responsive.

3.  The Director, Contracts Division, Shipbuilding Division, Naval Sea Systems
Command:

     a. Oversee and document oversight of the actions taken by the Groton Business
        Operations Officer described in above in items B.1 and B.2 to ensure:
        (1)   The actions are effectively and efficiently performed, and
        (2)   The Groton Business Operations Department has sufficient resources
              available to accomplish the tasks within the time frames specified.
    b. By November 30, 2010, report to the Assistant Inspector General for Audit Policy
       and Oversight the results of the actions, including documentation, taken by the
       Business Operations Officer, Supervisor of Shipbuilding, Conversion and Repair,
       Groton in response to Recommendations B.1 and B.2.

      Management Comments. The Department of Navy concurred with the
      recommendations.

      Our Response. The Navy comments were responsive.



                                             26
4.    The Director of Contracts, Naval Sea Systems Command:

     a. Reassess the action taken by the former Deputy Officer, Groton Business
        Operations Department to liquidate $3,882,926 in contract debt owed to the
        United States Government and take action to recover the $3,615,860 in contract
        debt offset against unpaid bills on Contract Nos. N00024-00-C-8501 and N00024-
        96-C-2108 (see Recommendation C.1)
                   (1) Ascertain that $3,882,926 of debt is the correct amount owed to the
                       US Government in accordance with Federal Acquisition Regulation
                       32.605(a)(2) in effect on September 30, 2004.
                   (2) Determine that the Government’s claim for payment of $3,882,926
                       was determined in accordance with Federal Acquisition Regulation
                       32.6 in effect on September 30, 2004. Where indicated, take action
                       to collect from the contractor any amounts found still outstanding.
                   (3) Evaluate and fairly consider in accordance with Federal Acquisition
                       Regulation 32.6 in effect on September 30, 2004 the contractor’s
                       claims for payment under the eight contractor proposed change
                       orders, Contract No. N00024-00-C-8501 said to support one unpaid
                       bill totaling $1,696,860. Where necessary, retrieve from the
                       contractor any contract debts found still outstanding.
     b. Re-evaluate the existing management controls at the Groton Business Operations
        Department for collecting contract debts and make improvements that ensure all
        contract debts are collected in accordance with the regulatory procedures
        provided in Federal Acquisition Regulation, Subpart 32.6.
     c. Within 3 months of the issuance of this final report, provide the Assistant
        Inspector General for Audit Policy and Oversight a memorandum detailing the
        results from Recommendations B.4.a and B.4.b, above.

      Management Comments. The Department of Navy concurred in principle with the
      recommendations. The Assistant Secretary of the Navy (Research Development and
      Acquisition) responded that the Naval Sea Systems Command Director for Contracts has
      reviewed the action taken by the former Deputy Officer, Groton, to liquidate $3,882,926
      in contract debt against unpaid bills on the two contracts cited, and believes those actions
      were undertaken in good faith. The Assistant Secretary of the Navy (Research
      Development and Acquisition) stated the Federal Acquisition Regulation provisions at
      32.602(a) addressing offsets were added in 2008, four years after the offset arrangement
      was agreed to by the former Deputy Officer. He provided that the Director of Contracts
      will provide a report within 3 months of the issuance of the final Inspector General report
      detailing the results of that assessment.

      Our Response. We appreciate that the Department of Navy concurred in principle;
      however, we consider the comments nonresponsive. For the following reasons, we
      disagree with the conclusions reached by the Naval Sea Systems Command Director for


                                               27
       Contracts. The actions taken by the former Deputy Officer were inappropriate and do not
       rise to the level of actions taken in “good faith”.

          •   No Written Report. The Naval Sea Systems Command Director for Contracts did
              not support the results of his reassessment with a written report. Consequently, a
              third party cannot perform an objective review of the facts and documentation he
              relied upon and reach the same conclusion or determine that the actions taken by
              the former Deputy Officer, Groton, were undertaken in good faith.

          •   No Records Demonstrating Compliance. The Naval Sea Systems Command
              Director for Contracts advised the DoD OIG auditors that he relied upon the same
              records that were provided to the DoD OIG during the course of our oversight
              review as the basis for his conclusion. However, we found we had never been
              provided with any records to demonstrate that the former Deputy Officer had
              complied with the provisions of Federal Acquisition Regulation 32.6 in effect on
              September 30, 2004.

          •   Pension Cost. We find that the ‘unpaid bill’ for pension costs that was used by
              the former Deputy Officer to offset $1,919,000 of contractor debt was in effect
              consideration given to the contractor for agreeing to circumvent the legally
              binding requirements of the December 1986 Advance Agreement Pension Cost
              when entering into Contract No. N00024-96-C-2108. We do not consider that
              any provision in the Federal Acquisition Regulation allow for the use of such an
              arrangement as the basis for offsetting a legitimate contractor debt.

          •   Improper Debt Liquidation. The Director, Budget Policy & Oversight, Office of
              Budget, Assistant Secretary of the Navy (Financial Management and Comptroller)
              reported that Groton contracting officials had improperly authorized contract debt
              liquidation on Ship Construction Navy contracts in the amount of $3,882,926, and
              that this action resulted in a violation of the Purpose Statute, 31 U.S.C. § 1301(a).

5.     As prescribed in DoD Financial Management Regulation, Volume 14, Chapter 3, the
Assistant Secretary of the Navy, Financial Management and Comptroller direct the Navy
Comptroller Office to initiate preliminary reviews and possible corrective actions for the
Supervisor of Shipbuilding, Conversion and Repair, Groton, Connecticut that potentially
violated the Antideficiency Act as defined by the DoD Financial Management Regulation.
We specifically refer to action taken by the former Deputy Officer, Groton Business
Operations Department, to authorize a contract debt liquidation to offset expired funding
and a funding short-fall of $1,696,860 on Contract No. N00024-00-C-8501. This action
authorized an expenditure in excess of the funds available under the contract and
potentially violated provisions of the Antideficiency Act, including the Statutes at 31 U.S.C.
1341 and 31 U.S.C. 1517.

       Management Comments. By Memorandum dated August 20, 2010, the Director,
       Budget Policy and Procedures Division, Office of Budget, Assistant Secretary of the


                                               28
Navy, (Financial Management and Comptroller) responded to this recommendation. The
Director commented that

   •   Though there was a Purpose Statute, the violation will be "cured" when Groton
       de-obligates the amounts that were improperly charged to the Ship Construction
       Navy appropriation and charges these amounts to the Operations & Maintenance,
       Navy appropriation.

   •   A violation of the Antideficiency Act, including a violation of 31 USC § 1341
       (a)(l)(A) or § 1517, did not occur in this matter. Whether or not Groton violated
       the Antideficiency Act depends on whether there is an adequate unobligated
       balance in the appropriation to which the submarine overhaul obligations should
       have been charged to, in this case, Operations & Maintenance, Navy. As there are
       sufficient appropriations available for obligation, the Department of Navy is not
       legally required to report a deficiency in accordance with the Antideficiency Act
       since there is no such deficiency.

Our Response. The actions taken by the Director, Budget Policy and Procedures
Division, Office of Budget, Assistant Secretary of the Navy, (Financial Management and
Comptroller) did not in all respects comply with the requirements of the DoD Financial
Management Regulation, Volume 14, Chapter 3. However, we accept their finding that a
violation of 31 USC § 1341 (a)(l)(A) or § 1517 did not occur in this matter if the Navy
has sufficient, proper funds to adjust the obligation. We will monitor the Department of
Navy actions to correct the Purpose Statute violation until completion.




                                       29
     C. Groton Unable to Establish Contractor
        Entitlement to Pension Cost Offset
     The former Deputy Officer, Groton Business Operations Department, liquidated contract
     debt to offset an unpaid amount of $1,919,000 said to exist for pension costs 17 on Contract
     No. N00024-06-C-2108, a contract awarded by the Naval Sea Systems Command in 1996 for
     a SEAWOLF Class Submarine. The debt liquidation was provided for in the
     September 30, 2004, Memorandum of Agreement (see Finding B). However, at the time of
     contract award the estimate of future pension costs 18 for the contract period of performance
     was zero ($0). Therefore, the former Deputy Officer, Groton Business Operations
     Department in essence provided the contractor with $1,919,000 in debt liquidation for non-
     existent pension costs. When questioned about this action, a June 7, 1996, Memorandum of
     Agreement was provided as support for the debt liquidation; however, the June 7, 1996,
     Memorandum of Agreement had no significance in the contract negotiation. As reported in
     Finding B, the former Deputy Officer, Groton Business Operations Department did not
     prepare business clearance memoranda justifying the actions he took in executing either 2004
     Memoranda of Agreement. Additionally, contract case file records were subsequently
     misplaced or discarded. The $1.9 million debt liquidation unjustifiably improved the
     contractor's profit standing to the detriment of the United States Government in its
     contractual relationship with the contractor.

     Naval Sea Systems Command Negotiation Objective for Contractor Pension Costs.
     The former Naval Sea Systems Command contract specialist that assisted in the negotiation
     of Contract No. N00024-96-C-2108 in 1996 19 provided the following information regarding
     the impact that the Groton June 7, 1996, Memorandum of Agreement had on the contract
     negotiation objectives established by the Naval Sea Systems Command negotiation team:




17
   Federal Acquisition Regulation 31.205-6 – Compensation for Personal Services, subparagraph (j) Pension Costs
provides that a contractor shall measure, assign, and allocate the costs of all defined-benefit pension plans in
compliance with Cost Accounting Standard 412—Cost Accounting Standard for Composition and Measurement of
Pension Cost, and Cost Accounting Standard 413—Adjustment and Allocation of Pension Cost. The Regulation
also provides that pension costs are allowable subject to the referenced standards and specified cost limitations.
18
   Cost Accounting Standard 412—Cost Accounting Standard for Composition and Measurement of Pension Cost
provides that the components of pension cost under a defined benefit plan are (i) the normal cost for the period, (ii) a
part of any unfunded liability, (iii) an interest equivalent on the unamortized portion of any unfunded actuarial
liability, and (iv) an adjustment for any actuarial gains and losses.
19
   The former contract specialist, now a Branch Chief, Contracts, Naval Sea Systems Command, provided to the
Office of Inspector General the pre- and post- Business Clearance Memoranda prepared by the Naval Sea Systems
Command negotiation team in accordance with Federal Acquisition Regulation 1.602-1(a), as well as copies of the
original contract and the restructured contract.


                                                          30
             •   The basis for the agreement to remove all pension costs for 1996 through 2002
                 was the overfunded status 20 of the contractor’s pension plan that arose prior to
                 1996.
             •   No cause and effect existed between the Groton June 7, 1996, Memorandum of
                 Agreement and the removal of all pension costs for 1996 through 2002.
             •   Had the Naval Sea Systems Command negotiation team believed that the Groton
                 June 7, 1996 Memorandum of Agreement was significant to contract negotiations;
                 the negotiation team would have referenced it in their Business Clearance
                 Memoranda. The Business Clearance Memoranda, and the resulting contract, are
                 silent with regard to the Groton June 7, 1996, Memorandum of Agreement with
                 the contractor.

     Review of Terms, Contract No. N00024-96-C-2108. Contract No. N00024-96-C-2108
     included the Incentive Price Revision – Firm Target contract clause found at Federal
     Acquisition Regulation 52.216-16. The terms included therein by the Naval Sea Systems
     Command and the contractor provided the contract final price would be established by
     adjusting the total final negotiated cost by an amount for profit or loss, determined as
     follows:

     When the total final negotiated cost is greater than the total target cost, the amount for
     profit or loss is the total target profit less FIFTY (50% ) percent of the amount by
     which the total final negotiated cost exceeds the total target costs.

     During contract negotiations, the Naval Sea Systems Command and contractor had agreed to
     remove all pension costs from the contract target costs. Under the Incentive Price Revision –
     Firm Target clause included in the contract, any actual pension costs incurred by the
     contractor would have reduced the contractor’s potential profit on the contract by 50 percent
     of any actual pension costs.

     Review of Terms, Groton June 7, 1996 Memorandum of Agreement. The terms
     included and agreed upon by a former Groton Assistant Contracts Officer and the contractor
     in the June 7, 1996, Memorandum of Agreement state that:

             The Navy recognizes that in the event the contractor incurs pension costs
             from 1996 forward that were not estimated or proposed by [the contractor]
             as a result of this agreement, the [contractor’s] effective profit rate would
             consequently be reduced based on the method of calculating fee as
             established in the contract clause entitled "Incentive Price Revision - Firm
             Target”. The Navy has determined that in the event of this occurrence,
             [the contractor] in consideration for this agreement, should be "made
             whole” on the [Contract No. N00024-96-C-2108] only, by excluding

20
   Overfunding of a pension plan can occur when the value of pension plan assets exceeds the sum of the actuarial
liability plus the normal cost for the period. Under this situation, pension cost is $-0-.


                                                        31
       pension costs from allowable incurred costs for purposes of calculating
       profit in accordance with the said incentive price revision clause.

The June 7, 1996, Memorandum of Agreement revised the profit arrangement negotiated by
the Naval Sea Systems Command, reversing the incentive placed on the contractor to avoid
any future employee pension costs during the period 1996 through 2002. No evidence was
provided by the Groton Business Operations Officer to demonstrate that the Government had
received any contractual consideration for entering into the June 7, 1996, Memorandum of
Agreement, other than the assertion that the removal of all pension costs from the rates
during contract negotiation was the result of the June 7, 1996, Memorandum of Agreement.

Lack of Rescission/Modification for Change to Contract Structure. No action was
taken by the Groton Business Operations Department to revise the June 7, 1996,
Memorandum of Agreement to reflect the contract restructure that occurred in 1999. The
original contract underwent a significant change from fixed-price incentive fee to firm-fixed
price and cost-plus incentive fee. There is no provision in the June 7, 1996 Agreement that
specified the rights of either party in the event of a change to a firm-fixed price or cost-plus
incentive fee type contract.

The Groton Business Operations Officer asserted that “As stated in the June 7, 1996
[Memorandum of Agreement], the intent of the document was to make the contractor ‘whole’
should events and costs change in the future.”

Lack of Contractor Claim or Invoice. Groton Business Operations Department personnel
were not able to provide a contractor proposal, claim, or invoice asserting a right for payment
in any amount arising from the June 7, 1996, Memorandum of Agreement. A written
contractor demand for payment is a sound business practice underlying all government
contracting. It ensures that payments made by government officials to third party contractors
are based upon a valid claim for payment.

The Groton Business Operations Officer asserted that “For clarification purposes: The terms
of the [June 7, 1996 Memorandum of Agreement] do not contain a requirement to submit a
claim, proposal, or other submission.”

Groton Demonstration of Amount. The Groton Business Operations Officer provided
calculations made in June of 2009 for the Office of Inspector General that showed the
$1,919,000 offset was attributable to the contractor incurring pension expense during its 2003
fiscal year. These calculations show a total pension expense of $1,834,520, with $1,614,387
in pension expense attributed to the firm-fixed price line items in the restructured contract
and $220,134 attributed to the cost plus incentive fee line items. The firm-fixed price
component of $1,614,387 was comprised of cost ($1,403,814) and profit ($210,572), while
the cost plus incentive fee was comprised of fee. The calculations resulted in an unexplained
difference of $84,480 from the offsetting amount of $1,919,000 included in the
September 30, 2004, Memorandum of Agreement for pension expense.



                                             32
  The Groton Business Operations Officer asserted “Pension costs did not change until 2003
  and were included in the 2004 settlement because the parties always intended to make the
  contractor whole on this issue.”

  Failure to Safeguard the Interests of the United States in its Contractual
  Relationships. Based on a review of existing records and files, the actions taken by the
  former Deputy Officer, Groton Business Operations Department, to grant the contractor
  entitlement to an offset of $1,919,000 for Pension Costs as a part of the September 30, 2004,
  Memorandum of Agreement were not justified.

  Based on the records and information made available to the Office of Inspector General, the
  June 7, 1996, Memorandum of Agreement:

         •   Did not provide any contractual consideration to the United States Government
             for entering the Agreement,
         •   Eliminated the incentive the contractor had to avoid any actual pension costs as
             provided for in the Incentive Price Revision – Firm Target clause included in the
             contract,
         •   Unjustifiably improved the contractor’s potential profit position on Contract No.
             N00024-96-C-2108.

  The available records indicate that the actions taken by senior Groton contracting officers
  since 1996 with regard to pension costs on Contract No. N00024-96-C-2108 breached the
  responsibilities granted a contracting officer by Federal Acquisition Regulation 1.602-2 –
  Responsibilities, which states:

         Contracting officers are responsible for ensuring performance of all
         necessary actions for effective contracting, ensuring compliance with the
         terms of the contract, and safeguarding the interests of the United States in
         its contractual relationships. In order to perform these responsibilities,
         contracting officers should be allowed wide latitude to exercise business
         judgment.


Management Comments on the Finding and Our Response.
     The Assistant Secretary of the Navy, (Research Development and Acquisition), provided
     the Department of Navy Response dated May 21, 2010. A summary of the comments is
     provided below. The full text of the response is provided in the Management Comments
     section of the report.

     Management Comments: Naval Sea Systems Command Negotiation Objective for
     Contractor Pension Costs. The Department of Navy did not concur with this finding.
     The Assistant Secretary of the Navy, (Research Development and Acquisition) stated that


                                              33
         while the Post Negotiation Business Clearance Memorandum does not reference the 1996
         Memorandum of Agreement as the cause of the removal of $145 million of pension costs
         from the forward pricing rates, the 1996 Memorandum of Agreement was known
         necessary to obtain the contractor’s concurrence to remove pension costs from the
         contract target cost settlement. He stated that, in retrospect, the Memorandum of
         Agreement should have been referenced in the Post Negotiation Business Clearance
         Memorandum, as it was relevant to the final settlement of Contract No. N00024-96-C-
         2108.

         Our Response. We appreciate that the Assistant Secretary of the Navy, (Research
         Development and Acquisition) concurred in principle; however, we consider the
         comments nonresponsive. Subsequent to receipt of the Department of Navy response, we
         held meetings with Naval Sea Systems Command contracting officials (Director for
         Contracts, Deputy Director of Contract Policy, and Director, Shipbuilding Contracts) to
         discuss the potential impact that additional information obtained by the DoD OIG from
         third parties might have on the Department of Navy position. In a July 1, 2010 meeting,
         the DoD OIG auditors were told that:

             •    When negotiating Contract No. N00024-96-C-2108 in 1996, prior Naval Sea
                  Systems Command contracting officials purposely disregarded the existing
                  Advance Agreement Pension Costs that had been executed by the U.S
                  Government and the contractor in December 1986. 21 This decision was made
                  despite the fact that the U.S. Government and the contractor had agreed to use the
                  accounting practices identified in the 1986 Advance Agreement Pension Costs
                  with respect to the equitable determination of the amount of pension costs
                  allocable to and allowable on Government contracts.

             •    When negotiating the incentive fee structure under a fixed-price incentive
                  contract, Naval Sea Systems Command contracting officials stated that the 1986
                  Advance Agreement Pension Plan did not provide for an adjustment to the
                  negotiated target cost. The Agreement only provided for an adjustment to
                  negotiated allowable cost. The Naval Sea Systems Command contracting
                  officials advised the DoD OIG auditors that, under their interpretation, had
                  Contract No. N00024-96-C-2108 been negotiated using the accounting practices


21
    Under the 1986 Advance Agreement Pension Plan, the contractor was required to price pension expense for
future contracts on the assumption that its pension plans were not overfunded. Thus, negotiated contract prices
would include the pension plan normal cost, amortization of actuarial gains (except any arising out of an actuarial
surplus) and losses, a part of any unfunded actuarial liability, and an interest equivalent on any unamortized portion
of any unfunded actuarial liability. The Advance Agreement required that, for any year during which the pension
plan may be in an actuarial surplus position, the contractor and the Government agreed to equitably adjust, as
promptly as possible after the end of such year, firm fixed price, fixed price incentive and cost type contracts
performed during said year. The adjustment was to give the Government credit for its portion of the actuarial
surplus in the form of a direct reduction in pension costs allocable to such contracts. The amount of the direct
reduction would be an amount equal to the allocable excess of pension cost priced into the contract over the amount
of allocable pension costs actually funded for the plan(s) for that year.


                                                          34
       provided in the 1986 Advance Agreement Pension Plan, the contractor would
       have received a $48 million windfall profit on the contract.
   •   To avoid paying such a windfall profit, prior Naval Sea Systems Command
       contracting officials established the incentive fee structure under Contract No.
       N00024-96-C-2108 with $0 for pension cost. However, Naval Sea Systems
       Command contracting officials told the DoD OIG auditors that the contractor
       would agree with this approach only if the Groton Business Operation
       Department executed the 1996 Memorandum of Agreement. That Agreement
       gave the contractor an out if their employee pension plan came out of full funding
       and they experienced pension cost during the contract period of performance.

   •   The Naval Sea Systems Command contracting officials asserted to the DoD OIG
       auditors that the pension deal negotiated with the contractor under Contract
       No. N00024-96-C-2108 protected the U.S. Government from paying a windfall
       profit of $48 million at a cost of $1,919,000 - the amount included as an offset by
       the former Deputy Officer in the Groton 2004 Memorandum of Agreement.

We requested the Naval Sea Systems Command Director for Contracts provide to the
DoD OIG a management letter identifying and attesting to the assertions made to the
auditors on July 1, 2010. We requested the letter include sufficient detail and reference
to supporting records to allow the auditors to judge its relevance, validity and reliability
in accordance with the auditing Standards promulgated by the Comptroller General of the
United States.

The DoD OIG was not provided with the requested management letter from the Naval
Sea Systems Command Director for Contracts. Instead, a Naval Sea Systems Command
contracting official not in attendance at the July 1, 2010 meeting advised the DoD OIG
by email that the Navy now concurs in principle to this finding, and that:

   •   The Naval Sea Systems Command contracting officials were unaware of the
       existence of the 1986 Advance Agreement Pension Costs until the July 1, 2010
       meeting when a copy was provided by the DoD OIG auditors.

   •   Upon review of that agreement and subsequent discussions with SUPSHIP
       Groton, the Navy agrees that the 1986 Advance Agreement was technically still in
       effect at the time Contract N00024-96-C-2108 was negotiated in 1996.

   •   The Navy believes its treatment of pension costs in the negotiation of Contract
       N00024-96-C-2108 resulted in the lowest cost solution for the Government.


We note that had the Naval Sea Systems Command priced Contract No. N00024-96-C-
2108 in accordance with the 1986 Advance Agreement Pension Costs, the contract price
would have increased by the same unsubstantiated $48 million that the Naval Sea
Systems Command contracting officials argued on July 1, 2010 amounted to a windfall


                                         35
        profit. Under the December 1986 Advance Agreement Pension Costs, the contractor was
        required to price pension expense for future contracts on the assumption that its pension
        plans were not overfunded. Likewise, had they complied with the 1986 Advance
        Agreement Pension Costs, the contract price, estimates at completion, and contract
        funding and budget requirements would have increased by the same unsubstantiated $48
        million.

        We researched prior DoD IG Report No. 98-087, Cost of SSN-21 Class Submarines, 22
        dated March 6, 1998 and found we had reported that the $7.393 billion cost limitation
        placed by Congress on the Seawolf Program appeared to be adequate. The March 1997
        estimate-at-completion provided by the Navy Seawolf Program Management Office was
        $7.393 billion, which was at the Congressionally mandated cost limitation. The
        September 1997 estimate-at-completion from the Navy Seawolf Independent Cost
        Review Team was $7.3257 billion, or $67.3 million under the cost limitation. Adding
        contractor pension cost computed in accordance with the 1986 Advance Agreement
        Pension Costs could have put the Seawolf Program over the Congressionally mandated
        cost limitation.

        Updated Management Comments: Naval Sea Systems Command Negotiation
        Objective for Contractor Pension Costs. By memorandum dated August 27, 2010, the
        Director, Program Analysis and Business Transformation, Deputy Assistant Secretary of
        the Navy (Acquisition and Logistics Management) commented that the Navy agrees that
        the December 1986 Advance Agreement Pension Cost was technically still in effect at the
        time Contract N00024-96-C-2108 was negotiated in spring 1996 but was subsequently
        cancelled in 1997. The Navy believes its treatment of pension costs in the negotiation of
        Contract N00024-96-C-21 08 resulted in the lowest cost solution for the Government.

        Our Response. We appreciate that the Department of Navy has accepted the legal
        standing of the December 1986 Advance Agreement Pension Cost. However, the
        Department of Navy has not taken responsibility for the actions taken by the former
        Naval Sea Systems Command contracting officials to disregard and override the
        requirements of the 1986 Advance Agreement Pension Cost when negotiating the terms
        of Contract No. N00024-96-C-2108. The actions taken by former Naval Sea Systems
        Command contracting officials to reach a “lowest cost solution” were inappropriate and


22
     The National Defense Authorization Act for Fiscal Year 1998 directed the Inspector General, DoD, to determine
whether the cost limitation imposed on the Seawolf class submarines was adequate. In making that determination,
the Inspector General was requested to determine the current cost estimate of the Navy for completion of the SSN-
21, SSN-22 and SSN-23. Congress had imposed cost limitations on the Seawolf Program, starting in 1994. The
National Defense Authorization Act for Fiscal Year 1996 authorized SSN-23 and imposed a cost limitation of
$7.224 billion for the procurement of three Seawolf class submarines, SSN-21, SSN-22 and SSN-23. The cost
limitation could be automatically increased for economic inflation, compliance with changes in Federal and state
laws and post delivery and outfitting costs. The $7.224 billion cost limitation was based on cost estimates and
projections that the Navy provided to Congress. By Fiscal Year 1998, the cost limitation had grown to $7.393
billion due to the impact of economic inflation and outfitting and post delivery costs.



                                                       36
did not fulfill public policy goals and objectives as envisioned under the Federal
Acquisition Regulation.



Management Comments: For the following findings, the Assistant Secretary of the
Navy (Research Development and Acquisition) did not provide a response.

   Review of Terms, Contract No. N00024-96-C-2108.

   Review of Terms, Groton June 7, 1996 Memorandum of Agreement.

   Lack of Rescission/Modification for Change to Contract Structure.

   Lack of Contractor Claim or Invoice.

   Groton Demonstration of Amount.

Our Response. The Department of Navy did not refute our findings as presented, nor
did they provide any additional factual evidence for our consideration that may have
persuaded us that the former Deputy Officer, Groton Business Operations Department
had complied with the Federal Acquisitions Regulation.

Management Comments: Failure to Safeguard the Interests of the United States in
its Contractual Relationships. The Department of Navy did not concur with the finding
on safeguarding U.S. interests. In his response, the Assistant Secretary of the Navy
(Research Development and Acquisition) stated that in consideration for the pension
Memorandum of Agreement of 1996, the Government received a lower price on the
award of the SSN23 contract. He also provided that a subsequent modification to that
contract (P00017) clearly stated that all written agreements would remain in effect. The
Assistant Secretary of the Navy (Research Development and Acquisition) provided that,
based on the above, the contractor was entitled to the $1,919,000 adjustment.

Our Response. We disagree. In addition to our original finding, we find that the
actions taken by prior Naval Sea Systems Command contracting officials to circumvent
the existing 1986 Advance Agreement Pension Cost when negotiating Contract No.
N00024-96-C-2108 also violated Federal Acquisition Regulation 1.602-2 –
Responsibilities.

We find that the ‘unpaid bill’ for pension costs that was used by the former Deputy
Officer to offset $1,919,000 of contractor debt was in effect consideration given to the
contractor for agreeing to circumvent the requirements of the existing 1986 Advance
Agreement Pension Cost when entering into Contract No. N00024-96-C-2108. We find
no provision in the Federal Acquisition Regulation that would allow for the use of such
an arrangement as the basis for offsetting a legitimate contractor debt.


                                        37
      These actions by Navy acquisition officials neither maintain the public’s trust nor fulfill
      the public policy objectives of the Department of Defense. Federal Acquisition
      Regulation 1.102 (a) states in part “The vision for the Federal Acquisition System is to
      deliver on a timely basis the best value product or service to the customer, while
      maintaining the public’s trust and fulfilling public policy objectives.”


Recommendations, Management Comments, and Our Response.

Recommendation C.
We recommend that the Director for Contracts, Naval Sea Systems Command:

1.    Reassess the action taken by the former Deputy Officer, Groton Business
Operations Department, to liquidate $3,882,926 in contract debt owed to the United States
Government and take action to recover the $3,615,860 in contract debt offset against
unpaid bills on Contract Nos. N00024-96-C-2108 and N00024-00-C-8501.

      Management Comments. In his May 21, 2010 response, Assistant Secretary of the
      Navy, (Research Development and Acquisition) responded that this recommendation is
      duplicative of recommendation B.4.a.

      Updated Management Comments. Subsequent to the May 21, 2010 Department of
      Navy response, the Director, Program Analysis and Business Transformation, Deputy
      Assistant Secretary of the Navy, (Acquisition and Logistics Management) commented
      that the Department of Navy concurs in principle with Recommendation C.1 but that the
      Navy believes its treatment of pension costs in the negotiation of Contract N00024-96-C-
      2108 resulted in the lowest cost solution for the Government.

      Our Response. We appreciate that the Department of Navy concurred in principle;
      however, we consider the comments nonresponsive. The Department of Navy fails to
      acknowledge that actions taken by former Naval Sea Systems Command contracting
      officials to reach a “lowest cost solution” were inappropriate and did not fulfill public
      policy goals and objectives as envisioned under the Federal Acquisition Regulation.
      Within 30 days of the issuance date of this report, the Assistant Secretary of the Navy
      (Research Development and Acquisition) needs to take vigorous action to ensure that
      legitimate contract debts totaling $1,919,000 are recovered from the contractor. In our
      opinion, these debts owed to the U.S. Government were wrongly offset against a 'unpaid
      bill' for pension costs as a part of the Groton 2004 Memorandum of Agreement. We find
      that the $1,919,000 offset of debt awarded to the contractor was consideration for
      agreeing to circumvent the legally binding requirements of the 1986 Advance Agreement
      Pension Cost when entering into Contract No. N00024-96-C-2108. We find no provision




                                               38
       in the Federal Acquisition Regulation allowing for such an arrangement and payment.
       (Also see Finding B, Recommendation B.4, Our Response.)



2.      Re-evaluate the existing management controls at the Groton Business Operations
Department and make improvements that ensure that all contract actions executed by
senior level contracting officers represent effective contracting, ensure compliance with the
terms of the contract, and safeguard the interests of the United States in its contractual
relationships with the contractor.

       Management Comments. The Department of Navy concurred with the
       recommendation.

       Our Response. The Navy comments were responsive.

3.     Issue a directive memorandum to all Supervisor of Shipbuilding, Conversion and
Repair contracting officers establishing that the following dictates of Federal Acquisition
Regulation 1.602-2 – Responsibilities shall take precedence over the ‘wide latitude to
exercise business judgment’ afforded contracting officers when making contracting
decisions on behalf of U.S. Government.
              Contracting officers are responsible for … ensuring compliance
              with the terms of the contract, and safeguarding the interests of
              the United States in its contractual relationships.

       Management Comments. The Department of Navy did not concur with the
       recommendation. In his response, the Assistant Secretary of the Navy (Research
       Development and Acquisition) observed that the DODIG recommendation is that
       NAVSEA should disregard the plain language of Federal Acquisition Regulation 1.602-2
       by having one sentence in that Federal Acquisition Regulation cite take precedence over
       the next sentence to which it specifically refers.

       Our Response. We have rescinded the recommendation.

4.    Evaluate the need to rotate senior civilian contracting officers on a periodic basis
between the several Supervisor of Shipbuilding, Conversion and Repair locations.

       Management Comments. The Department of Navy concurred with the
       recommendation.

       Our Response. The Navy comments were responsive.

5.    Within 3 months of the issuance of this final report, provide the Assistant Inspector
General for Audit Policy and Oversight a report detailing the results from



                                             39
Recommendations C.1, C.2, and C.4 above, as well as a copy of the written guidance
established in accordance with Recommendation C.3.

      Management Comments. The Department of Navy concurred with Recommendations
      C.1, C.2 and C.4.

      Our Response. The Navy comments were responsive.




                                           40
Appendix A. Scope and Methodology
The project was established after risk factors were observed during follow-up work on
Department of Defense Inspector General Report No. D-2008-6-005. The process used by the
Supervisor of Shipbuilding, Conversion and Repair, Groton, to establish final indirect rates
appeared to conflict with Federal Acquisition Regulation Part 42.7 – Indirect Rates, Federal
Acquisition Regulation 52.216-7 Allowable Cost and Payment, and Cost Accounting Standard
406. This conclusion was reached after review of the information included in the Navy’s
response to the Report, dated July 9, 2008, Enclosure (1), Finding A: Premature Establishment of
Indirect Cost Rates. The Navy had nonconcurred with our recommendation to discontinue the
practice of establishing final indirect cost rates without taking final action on Defense Contract
Audit Agency unresolved and questioned cost.

The project scope was designed to demonstrate that final indirect costs rates established by
contracting officers at the Supervisor of Shipbuilding, Conversion and Repair, Groton, complied
with Federal Acquisition Regulation Part 42.7 – Indirect Rates, Federal Acquisition Regulation
52.216-7 Allowable Cost and Payment, and Cost Accounting Standard 406. We used auditor
findings and recommendations included by the following Defense Contract Audit Agency in the
following reports

       Report Number 02361-1999R10150001, dated 30 September 1999
       Report Number 02361-1998B10100016, dated 29 September 2000
       Report Number 02361-1999R10100001, dated 31 August 2001
       Report Number 02361-2000R10100001, dated 25 September 2002
       Report Number 02361-2001B10100001, dated 15 August 2003
       Report Number 02361-2003B17900017, dated 14 September 2004

We performed this project from February 2009 through February 2010.

Prior Coverage. In the last 6 years, we issued two other reports related to the Navy’s actions on
Defense Contract Audit Agency audit reports. We reported several inadequacies with the
contract audit follow-up process, including inaccuracies with the Supervisor of Shipbuilding,
Conversion and Repair, Groton semiannual reporting of contract audit follow-up data.

   •   Department of Defense Inspector General Report No. D-2004-6-006, “Oversight Review
       of Naval Sea Systems Command Contract Audit Follow-up Process,” July 8, 2004
   •   Department of Defense Inspector General Report No. D-2008-6-005, “Report of Actions
       on Incurred Cost Audits by the Supervisor of Shipbuilding, Conversion and Repair
       Groton, Connecticut,” May 5, 2008




                                               41
42
   Summary of Assistant Secretary of the Navy,
(Research Development and Acquisition) Comments
                        May 21, 2010            August 27, 2010
      Recommendations   ASN(RD&A) Comments      ASN(A&LM) Comments
      A.1.a.            Concur
      A.1.b.            Nonconcur               Concur in Principle
      A.1.c.            Nonconcur               Concur in Principle
      A.1.d.            Concur
      A.1.e.            Nonconcur
      A.2.a.            Concur
      A.2.b.(i)         Concur
      A.2.b.(ii)        Concur
      A.2.b.(iii)       Nonconcur
      A.2.c.            Concur
      A.2.d.            Concur
      B.1.a.            Concur
      B.1.b.            Concur
      B.1.c.            Concur
      B.2.a.            Concur
      B.2.b.            Concur
      B.2.c.            Concur
      B.3.a.            Concur
      B.3.b.            Concur
      B.4.a.            Concur in Principle
      B.4.b.            Concur in Principle
      B.4.c.            Concur in Principle
      B.5.              Partially concur
      C.1.              Duplicative of B.4.a.   Concur in Principle
      C.2.              Concur
      C.3.              Nonconcur
      C.4.              Concur
      C.5               Partially Concur




                                       43
Assistant Secretary of the Navy, (Research Development
and Acquisition) Comments




                                44
45
46
47
48
49
       Final Report
        Reference




     August 27, 2010,
     the Director,
     Program Analysis
     and Business
     Transformation,
     provided that the
     Navy concurs in
     principle with
     Recommendation
     A.1.b.




50
       Final Report
        Reference




     August 27, 2010,
     the Director,
     Program Analysis
     and Business
     Transformation,
     provided that the
     Navy concurs in
     principle with
     Recommendation
     A.1.c.




51
52
53
54
55
56
57
58
59
60
61
       Final Report
        Reference




     August 27, 2010,
     the Director,
     Program Analysis
     and Business
     Transformation,
     provided that the
     Navy concurs in
     principle with
     Recommendation
     C.1.




62
63
64
65
Director, Budget Policy and Procedures Division, Office of
Budget, Assistant Secretary of the Navy, (Financial
Management and Comptroller) Comments




                                  66
67
68
69
Director, Program Analysis and Business Transformation,
Deputy Assistant Secretary of the Navy, (Acquisition and
Logistics Management) Comments




                                 70
71
72
73
